Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       FDA Oversight of State
        Food Firm Inspections

     A Call for Greater Accountability




                     JUNE GIBBS BROWN
                      Inspector General

                          JUNE 2000
                        OEI-01-98-00400
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General,
also contributed to this report. Principal OEI staff included:

BOSTON                                          HEADQUARTERS

Elizabeth A. Robboy, Lead Analyst               Elise Stein, Director, Discretionary Programs Staff
Nicola Y. Pinson, Lead Analyst




        To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                         EXECUTIVE                     SUMMARY


PURPOSE

          To assess the Food and Drug Administration’s oversight of food firm inspections
          conducted by States through contracts and partnership agreements.

BACKGROUND

Inspections as a Key to Food Safety

          The World Health Organization recently estimated that up to 30 percent of people living
          in industrialized countries may suffer from foodborne illnesses each year. In the United
          States, the Centers for Disease Control and Prevention recently estimated that foodborne
          diseases cause about 76 million illnesses, 325,000 hospitalizations, and 5,000 deaths each
          year. The annual cost of foodborne illness in the United States is estimated to be between
          $7.7 and $23 billion.

          The Food and Drug Administration (FDA) plays a key role in overseeing the nation’s food
          supply. It is responsible for the oversight of most foods involved in interstate commerce,
          with the major exceptions of meat and poultry. Under the Federal Food, Drug, and
          Cosmetic Act, the FDA’s primary role in food safety is to inspect the conditions under
          which food is manufactured, processed, packed, and stored. The States also play a critical
          role in overseeing the nation’s food supply. State and local governments conduct the
          majority of inspections in the U.S., including food retailers, manufacturers, processors and
          distributors within their State boundaries in accordance with their own laws and
          authorities.

          Over the past 25 years, FDA has extended its inspection coverage by utilizing the
          resources and expertise in the States to fulfill its responsibility. For many years, FDA
          relied on contract arrangements, through which FDA paid the States to conduct
          inspections in accord with Federal regulations. In recent years, FDA has initiated
          partnership agreements with a number of States. Under these arrangements, the States
          agree to conduct inspections under their own authorities, without Federal funding, and to
          share the results with FDA. An effective food safety system depends on the collective
          efforts and coordination among Federal, State and local levels of government.

FDA Oversight as a Key to Accountability

          In recent years, groups including the National Academy of Sciences, the Association of
          Food and Drug Officials, industry trade associations, consumer groups, and the States
FDA Oversight: A Call for Greater Accountability   1                                     OEI-01-98-00400
          themselves have recognized the importance of strong Federal oversight of State food firm
          inspections. Such oversight is essential to assure consumers that necessary food safety
          protections are in place, and to assure domestic industries and international trading
          partners that the FDA is committed to the quality and uniformity of food safety regulation.

This Inquiry

          In this report, we begin by reviewing three fundamental factors that underscore the
          importance of FDA oversight of State inspections conducted through contracts and
          partnership agreements. We then turn, in more depth, to assess the adequacy of that
          oversight system. We draw on a variety of sources in this inquiry, including analysis of
          FDA inspection data, national surveys, site visits, observations of FDA audits, reviews of
          the State contracts and partnership agreements, reviews of year-end evaluations, and
          interviews with industry, consumer groups, and food policy experts.

IMPORTANCE OF OVERSIGHT

FDA Relies Heavily on State Food Firm Inspections.

          We found that in the past 3 years, States conducted through contracts and partnership
          agreements, on average each year, 61 percent of food firm inspections recorded in FDA’s
          national database. Although traditionally States have focused heavily on low-risk food
          firms, increasingly, these State inspections are focused on high-risk food firms.
          Partnership agreements, which rely primarily on State authorities and resources, are
          becoming a significant source of food firm inspections. State inspections offer FDA an
          important source of industry coverage, as well as expertise.

States Vary Significantly in their Capacities to Conduct Inspections.

          We identified five significant ways in which State inspections and food programs vary:
          inspection classifications, enforcement authorities, inspection authorities and regulations,
          inspector education and training, and time spent on inspections. These variations raise
          concern about the quality and uniformity with which FDA’s food program is carried out.

Variation in State Regulatory Programs can Inhibit Commerce.

          The variation in State laws and inspection practices adds complications, costs, and
          frustrations for food firms engaged in multi-State commerce. For our international trading
          partners, variation in State laws and inspection practices can undermine confidence in the
          uniformity of U.S. food safety standards and enforcement efforts.




FDA Oversight: A Call for Greater Accountability    2                                     OEI-01-98-00400
FINDINGS

FDA’s Oversight of State Food Firm Inspections is Limited.

          Under contracts, FDA obtains minimal information to assess the quality of State
          food firm inspections.

                    FDA’s on-site audits have declined. Over the past 5 years, the number of audits
                    dropped 59 percent, from 253 in 1993 to 104 in 1998. In 1998, FDA district
                    offices did not conduct a single audit in 21 of the 38 States holding contracts.

                    FDA’s on-site audits provide a limited basis for assessing State performance.
                    FDA relies primarily on independent audits, which focus on the accuracy of
                    inspection findings but give little attention to how State inspectors drew
                    conclusions. FDA’s lack of documentation of State performance further limits the
                    effectiveness of audits.

                    FDA’s reviews of State contract inspection reports lack much rigor. FDA
                    conducts minimal assessment of the quality of inspection reports submitted by
                    States. In response to our survey, 14 of 17 FDA district offices overseeing
                    contracts reported that they use no formal criteria to evaluate the quality of the
                    reports.

                    FDA rarely seeks input from external sources to evaluate State performance.
                    FDA takes little advantage of its public meetings, food safety hotlines, or food
                    safety websites to solicit input from food firms, trade associations, or consumers
                    about the quality of State inspections.

          Under partnership agreements, FDA obtains even less information to assess the
          quality of State food firm inspections.

                    FDA does not audit State performance, but participates in some joint
                    inspections with States. FDA and State officials regard joint inspections as a
                    mechanism to provide on-site training for both Federal and State inspectors rather
                    than as a tool to evaluate State performance.

                    FDA’s reviews of State partnership inspection reports are even more limited
                    than its reviews of contract inspection reports. States submit differing levels of
                    information about partnership inspections, depending on the States’ inspection
                    resources, policies, and procedures. We found that FDA district offices often
                    lacked enough information to assess the quality of inspections.

          FDA provides limited feedback to States on the quality of their inspections.

FDA Oversight: A Call for Greater Accountability      3                                      OEI-01-98-00400
                    The majority of FDA’s ongoing feedback to States relies on informal
                    communication and individual district office initiatives. FDA does not
                    routinely provide States with written feedback on either its on-site audits or
                    reviews of State inspection reports.

                    FDA’s performance evaluations provide States with little feedback about the
                    quality of State inspections. The majority of contract and partnership
                    evaluations contain cursory and general comments with little meaningful
                    assessment of States’ performance. Furthermore, FDA rarely provides the
                    evaluations to States.

                    FDA’s feedback places little emphasis on improving the quality of State
                    inspections. FDA’s feedback is geared toward identifying deficiencies in food
                    firm inspections rather than enhancing State performance. FDA does little to
                    identify best practices among States and disseminate this information.

          FDA provides limited feedback to the public regarding its oversight of contracts and
          partnership agreements.

                    FDA does not make information available about its reliance on State
                    inspections or about State performance. Despite its extensive reliance on State
                    inspections, it shares little information about the extent and nature of its reliance.
                    Such information would provide an important source of FDA accountability to
                    consumer, industry, and other groups.

FDA Faces Significant Barriers in Overseeing States

          FDA’s ability to conduct quality oversight depends largely on its own internal capacities.
          A number of barriers inhibit FDA’s capacity to conduct effective oversight:

          Low priority of food safety inspections. Without a statutory requirement to inspect a
          minimum number of food firms, FDA’s resources to conduct food firm inspections has
          diminished. Within the food inspection program, FDA’s resources to oversee State food
          firm inspections competes with its own resources to inspect food firms.

          Limited leverage to oversee partnership agreements. The majority of FDA and State
          officials we spoke with underscored the fact that States are doing FDA a favor by helping
          the FDA to extend its inspection coverage at a very low cost. FDA’s heavy reliance on
          States compromises its ability to be truly critical of these inspections.

          Reduced training and agency expertise. Maintaining agency expertise is vital to
          effectively overseeing States. In the past decade, however, formal training has declined
          and FDA has lost field experience in States that inspect the bulk of the food firms.

FDA Oversight: A Call for Greater Accountability       4                                     OEI-01-98-00400
          Limited accountability of FDA district offices. FDA does little to assess the
          effectiveness of district offices in overseeing State inspections.

          Lack of important enforcement authorities. FDA must rely on State enforcement
          authorities that it lacks, including the ability to revoke a firm’s license, to immediately
          embargo food suspected of being adulterated, and to access all of a food firm’s records
          without a Federal warrant. Several FDA and State officials have raised concerns that this
          reliance compromises FDA’s ability to be critical of State inspections.

RECOMMENDATIONS

          State governments play a critical role in ensuring the safety of the nation’s food supply,
          both under their own authorities and in concert with FDA through contracts and
          partnership agreements. They provide valuable resources and expertise that serve as a
          complement to FDA’s own inspection efforts. Our recommendations recognize and build
          on the importance of this State role.

          For State inspections carried out under FDA auspices, it is essential that FDA provide
          effective oversight to ensure both the quality and uniformity of inspections. FDA brings
          important strengths to this oversight role through a tradition that emphasizes science-
          based research and a public health perspective. We offer seven recommendations, based
          on the following template, on how FDA can provide leadership to address the
          shortcomings we identified in its current system of oversight. FDA has already
          undertaken some recent initiatives in the direction we call for.


                                      Template For Effective FDA Oversight
                                         of State Food Firm Inspections

                U Equivalency: Equivalency among Federal and State food safety
                  standards, inspection programs, and enforcement practices.
                U On-site Audits: An effective on-site mechanism for evaluating State
                  inspection performance.
                U Inspection Information: Routine submission of standardized
                  inspection information.
                U External Sources: Information from varied external sources on State
                  inspection performance.
                U Feedback to States: Substantive and timely FDA feedback to States
                  on inspection performance.
                U Internal Capacities: Enhanced FDA capacities to conduct effective
                  oversight.
                U Public Information: Proactive public disclosure of FDA’s reliance
                  upon and oversight of State inspections.

FDA Oversight: A Call for Greater Accountability       5                                 OEI-01-98-00400
          We present our specific recommendations below. But first we offer a caution.

An Initial Caution: FDA Should Reevaluate Its Reliance on the Partnership
Agreements as a Mechanism for Conducting Inspections.

          Partnership inspections have grown to account for 43 percent of the State food firm
          inspections conducted in association with FDA. While many of the State inspections may
          well be of high quality, FDA is not in a position to adequately attest to the quality or
          uniformity of these inspections.

          We believe that a two-tier system of FDA oversight, under which there is less oversight of
          partnerships than contracts, is inappropriate. As follows, we offer our recommendations
          as actions that FDA can take to oversee State inspections conducted through both the
          partnership agreements and contracts. FDA must be able to assure consumers, industry,
          and international trading partners that its commitment to quality and uniformity is
          independent of the mechanism through which inspections are conducted.

Recommendation 1. FDA Should Work with States to Achieve Basic Equivalency
in Food Safety Standards and Laws, and in Inspection Programs and Practices.
      < Pilot test a system audit as a mechanism to foster equivalency and evaluate State
        capacity and performance.

Recommendation 2. FDA Should Devote High Priority to Improving its On-Site
Audit Mechanism for Evaluating the Effectiveness of State Inspections.
      < Stress joint audits rather than independent audits.
      < Develop guidance for effective on-site audits.
      < Determine the appropriate minimum frequency for on-site audits.

Recommendation 3. FDA Should Require that States Routinely Provide FDA with
Standardized Information on the Inspections They Conduct.
     < Define a core set of information to collect from States about food inspections.
     < Provide guidance on the extent and nature of inspection report reviews.

Recommendation 4. FDA Should Draw on Multiple External Sources of
Information in Assessing State Inspection Performance.
      < Solicit feedback from industry, consumer, and other groups on the adequacy of State
        inspections.

Recommendation 5. FDA Should Provide Substantive and Timely Feedback to
States on Their Inspection Performance.
      < Provide States with ongoing and written feedback from on-site audits.
      < Provide States with periodic evaluations assessing overall performance.
      < Promote information exchange on promising approaches of State programs.

FDA Oversight: A Call for Greater Accountability   6                                   OEI-01-98-00400
Recommendation 6. FDA Should Enhance Its Internal Capacities to Conduct
Effective Oversight.
       < Ensure inspector competence in both inspection and audit functions.
       < Hold district offices more accountable for conducting effective oversight.
       < Ensure the systematic identification of all food firms in interstate commerce.
       < Seek broader FDA enforcement authorities.

Recommendation 7. FDA Should Increase Public Disclosure of Its Oversight of
State Food Firm Inspections.
      < Make more explicit information available about FDA’s reliance upon States and its
        oversight of State inspections.

COMMENTS ON THE DRAFT REPORT

          We received written comments on the draft report from the Food and Drug
          Administration, the Association of Food and Drug Officials, the National Food Processors
          Association, the National Fisheries Institute, and the Center for Science in the Public
          Interest. In general, the report received wide support among each of the groups. In the
          body of the report, we summarize the major comments and offer our responses. We
          incorporated several changes recommended by these groups in the text of the final report.
          The full text of each set of comments is included in appendix M.

The Food and Drug Administration

          The FDA welcomes our report as a tool to strengthen Federal oversight of State food
          safety inspections. The FDA agrees with the majority of our recommendations and points
          to a number of recent initiatives underway that move in the direction we call for. The
          FDA does not agree with our recommendation to solicit external information sources in
          assessing State performance. The agency believes that its own audit process is the best
          way to assess State performance. The agency also does not address our specific
          recommendations about increasing public disclosure of information regarding FDA
          oversight and State performance. Regarding oversight of the partnership agreements, the
          FDA agrees that it must “fundamentally modify the nature of these agreements.”

          We recognize that FDA is dealing constructively with many of the shortcomings we
          identify in our report. We encourage the agency to continue to do so. We also urge the
          agency to reconsider the value of external sources of information in assessing State
          performance. We continue to believe that such information can serve as an important
          complement to FDA’s own audit information. On the matter of publicly disclosing
          information, we urge FDA to take immediate action to post the performance information
          we recommend. Such information could include identification of the States with which
          FDA holds a contract or partnership, the number and types of inspections under each
          arrangement, the ratio of FDA-to-State inspections in particular States, and the FDA’s
          assessments of State performance through audits or periodic performance evaluations.

FDA Oversight: A Call for Greater Accountability   7                                  OEI-01-98-00400
External Organizations’ Comments

          The external parties express support for the major thrust of our findings and
          recommendations. Each group also raises several concerns. The Association of Food and
          Drug Officials (AFDO) emphasizes the expertise of many State programs and questions
          whether all FDA district offices are currently in a position to adequately judge the quality
          and uniformity of State inspections. The AFDO also underscores the work of the Roles
          and Responsibilities work group within the National Food Safety System (NFSS) project
          as an important reference point that FDA may want to consider in redesigning its
          oversight of State food firm inspections.

          The two industry groups, the National Food Processors Association (NFPA), and the
          National Fisheries Institute (NFI), express particular support for our recommendation to
          incorporate feedback from external parties in the evaluation of State programs. The
          NFPA urges that our recommendations go further by also including feedback from
          external parties on the performance of Federal inspections. Neither group agrees with our
          recommendation to provide FDA with additional enforcement authorities. The groups
          believe that the current system of relying on State authorities for enforcement has worked
          well. The Center for Science in the Public Interest (CSPI) strongly supports our report,
          but does not feel that we went far enough with our recommendations. The CSPI’s
          comments point out vulnerabilities and potential weaknesses in State inspection programs,
          such as the potential influence of State politics and economics on regulatory oversight.
          The group suggests that FDA should restrict reliance on States to low-risk inspections.

          We are pleased with the broad support from each of the external parties for the major
          thrust of the findings and recommendations in our report. On the matter of State and
          Federal expertise, we believe that AFDO raises an important point regarding the
          variation in food safety expertise and inspection and audit practices among FDA district
          offices. We recommend that FDA ensure inspector competence in both inspection and
          audit functions. Such expertise is critical to the credibility of the oversight process. We
          also recognize the current work underway through the NFSS project and we have
          modified the text of our report to more fully reflect this work. Regarding concerns with
          our recommendation to provide FDA with additional enforcement authorities, we
          continue to believe that these authorities are a vital component of effective oversight.
          We, along with other groups, raise concern that FDA’s reliance on States to take
          enforcement actions may compromise FDA’s ability to be critical of States’ performance.
          On the issue of Federal reliance on State inspections, we do not seek to determine what
          would be an appropriate balance of inspection duties among Federal and State
          governments. However, we do emphasize that FDA should assure consumers that its
          commitment to food safety is no less under partnerships than it is under contracts.




FDA Oversight: A Call for Greater Accountability   8                                     OEI-01-98-00400
                            TABLE OF CONTENTS
EXECUTIVE SUMMARY                                                                                                          PAGE

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


IMPORTANCE OF OVERSIGHT
     FDA Oversight is Vital
       Heavy reliance on States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

       Variation among States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

       Uneven regulatory playing field . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


FINDINGS
      FDA Oversight is Limited
         Minimal information under contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  21

         Less information under partnerships . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  24

         Limited feedback to States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             26

         Limited feedback to the public . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               28

      FDA Faces Significant Barriers to Conduct Oversight
         Low priority of food safety oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  29

         Limited leverage to oversee partnerships . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   29

         Reduced training and agency expertise . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    30

         Limited accountability of FDA district offices . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     30

         Lack of important enforcement authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      30


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43


APPENDICES
    A: States holding contracts and partnerships . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  48

    B: Types of partnership agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                50

    C: FDA district offices overseeing contracts and partnerships . . . . . . . . . . . . . . . . . . . .                           51

    D: Study methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          52

    E: FDA and State inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            54

    F: State contract inspection data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           55

    G: FDA and State enforcement authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    57

    H: State educational and training requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          58

    I: FDA contract audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        59

    J: Partnership agreement document analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    60

    K: Contract semi-annual performance evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        62

    L: Partnership annual performance evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    65

    M: Full text of comments on the draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    67

    N: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   96


FDA Oversight: A Call for Greater Accountability                 9                                                  OEI-01-98-00400
                                     INTRODUCTION


PURPOSE

          To assess the Food and Drug Administration’s oversight of food firm inspections
          conducted by States through contracts and partnership agreements.

BACKGROUND

Importance of Food Safety

          The World Health Organization recently estimated that up to 30 percent of people in
          industrialized countries may suffer from foodborne illness each year, and the problem is
          likely to be greater in developing countries.1 In the United States each year, the Centers
          for Disease Control and Prevention estimated that foodborne diseases cause about 76
          million illnesses, 325,000 hospitalizations, and 5,000 deaths.2 Even these figures may be
          low due to the number of foodborne illnesses that go unreported each year. The
          symptoms of foodborne illness range from mild stomachaches and intestinal upset to life-
          threatening nerve, liver, and kidney problems. The annual cost of foodborne illness in the
          United States each year is estimated to be between $7.7 and $23 billion.3 Some experts
          project that the reported incidence of foodborne illness will increase by 10 to 15 percent in
          the next decade.4

          In 1997, in response to increasing challenges in maintaining the safety of the nation’s food
          supply, the President launched the Food Safety Initiative to improve food safety and
          reduce the incidence of foodborne illness. At the request of Congress, the National
          Academy of Sciences assessed the effectiveness of the current food safety system. The
          Academy’s report, entitled, Ensuring Safe Food from Production to Consumption, raised
          concerns about the fragmentation of the current system.5 In 1998, the President
          established a Council on Food Safety to coordinate food safety policy and resources.
          Each of these groups has recognized the roles for Federal, State and Local agencies and
          the importance of Federal oversight in ensuring the safety of our national food supply.

Inspections as a Key to Food Safety

          Inspections of food firms, carried out by State and Federal agencies, are an essential
          component of the national food safety system intended to prevent foodborne illnesses.
          The 1997 report to the President entitled, Food Safety from Farm to Table: A National
          Food Safety Initiative, cited food inspections as one of six key components of a national
          food safety system.6



FDA Oversight: A Call for Greater Accountability   10                                     OEI-01-98-00400
          The Food and Drug Administration (FDA) plays a key role in overseeing the nation’s food
          supply. It is responsible for the oversight of most foods involved in interstate commerce,
          with the major exceptions of meat and poultry. Under the Federal Food, Drug, and
          Cosmetic Act, the FDA’s primary role in food safety is to inspect the conditions under
          which food is manufactured, processed, packed, and stored. FDA’s 20 district offices
          carry out the food inspections under guidance from FDA headquarters.

          The States also play a critical role in overseeing the nation’s food supply. State and local
          governments conduct the majority of inspections in the U.S., including food retailers,
          manufacturers, processors and distributors within their State boundaries in accordance
          with their own laws and authorities. Many of the food firms inspected by States may also
          fall under Federal jurisdiction if they are involved in interstate commerce. States are
          generally in the field more frequently than FDA and offer an important source of front-line
          experience and expertise.

FDA Contracts and Partnership Agreements with States

          Over the past 25 years, FDA has extended its inspection coverage by utilizing the
          resources and expertise in the States to fulfill its responsibility. Until recently, this
          assistance was limited to contract arrangements, through which FDA paid the States to
          conduct inspections in accordance with Federal regulations. In 1998, FDA held 40 food
          contracts with 38 States (see appendix A).7 These contracts covered 4,155 food firm
          inspections, ranging from 10 to 353 per contract. In States where FDA did not enter into
          a contract, FDA conducted the food firm inspections itself. In 1998, FDA spent $2.04
          million on the State food contracts.

          Since 1994, FDA has further extended its inspection coverage through partnership
          agreements with States. Many, though not all of these States, also hold contracts with
          FDA. Under partnership agreements, States agree to conduct inspections under their own
          authorities, without Federal funding, and to share the results with FDA. In 1998, FDA
          held 37 such partnership agreements with 29 States (see appendix B). These agreements
          covered 3,165 food firm inspections, ranging from as few as 5 to as many as 635 food firm
          inspections per partnership agreement. In 1998, FDA contributed $319,000 to the
          partnership agreements in the form of training, technical assistance, and equipment.

          The 20 FDA district offices negotiate with the States for the types of food firm inspections
          to be conducted under the contracts and partnership agreements. These inspections may
          be of high- or low-risk food firms. Currently, the FDA has no standardized, agency-wide
          criteria for measuring the risk of a food firm.8 In general, high-risk food firms involve
          food products or manufacturing and processing technologies that have higher potential for
          contamination. Seafood firms and low-acid canned food firms are two major categories of
          high-risk food risk food firms inspected by States through contracts and partnership
          agreements. Food firms typically considered to be low-risk include warehouses, bottlers,
          and bakeries.

FDA Oversight: A Call for Greater Accountability   11                                    OEI-01-98-00400
          FDA has set forth specific mechanisms for its 20 district offices to oversee the State
          contracts and partnership agreements.9 In 1998, 17 of these offices were responsible for
          overseeing State food inspection contracts; and 17 offices were responsible for overseeing
          State partnership agreements related to food inspections (see appendix C). The oversight
          mechanisms and the basics of the two arrangements are more fully described in the primer
          on page 12.

FDA Oversight as a Key to Accountability

          Oversight of State food firm inspections conducted in association with FDA is essential to
          assure consumers that necessary food safety protections are in place, and to assure
          domestic industries and international trading partners that FDA is committed to achieving
          quality and uniformity in food safety regulation. In recent years, a number of other groups
          have recognized the importance of strong Federal oversight including the President’s
          Council on Food Safety, the National Academy of Sciences, industry trade associations,
          consumer groups, and the States. For example, in January 2000, the Association of Food
          and Drug Officials issued a statement to FDA underlining, from a general State
          perspective, the importance of Federal oversight “to assure to U.S. consumers and our
          foreign trading partners that the inspections conducted by States are indeed equivalent to
          those conducted by the federal government.”

Two Recent Initiatives in Food Safety

          The Hazard Analysis Critical Control Point (HACCP) Approach to Inspections. The
          HACCP system, which introduces a science-based system of control and prevention, has
          fundamentally altered the way in which government oversees and inspects the nation’s
          food supply. A HACCP inspection focuses on a science-based assessment of a food firm’s
          hazard and prevention control processes. This is a dramatic shift from the traditional
          approach of assessing food safety through basic observations of sanitation.10 In 1997,
          FDA implemented final regulations requiring the seafood industry to implement HACCP
          programs and is currently sponsoring pilot HACCP programs in other products and
          industries.

          In 1999, FDA set forth a goal of inspecting 100 percent of the seafood industry for
          compliance with the seafood HACCP requirements. Many FDA district offices have been
          struggling to fulfill this requirement given their rising workloads. Increasingly, they are
          relying on States to meet the seafood HACCP inspection requirements. Oversight takes
          on an increasing significance given the potential risks involved with seafood and the
          complexity of these inspections.

          The Emergence of a Nationally Integrated Food Safety System. Concerns about our
          fragmented system of food oversight have led a number of groups, including the
          President’s Council on Food Safety, the Association for Food and Drug Officials, and the
          National Academy of Sciences, to promote a nationally integrated food safety system that

FDA Oversight: A Call for Greater Accountability   12                                   OEI-01-98-00400
          maximizes and coordinates food safety resources. Such a system would integrate food
          safety activities at the local, State, and Federal levels of government. While different
          models are being discussed, many envision a system in which the Federal government
          would provide leadership through standard setting, technical support, risk assessment,
          training, and program oversight and evaluation. While the Federal agencies would not
          turn over the entire inspection process, the States and local governments would be
          responsible for conducting the great majority of food inspections. Such an integrated
          regulatory system holds much promise.

          In an effort known as the National Food Safety System (NFSS) project, Federal, State and
          local officials have initiated six work groups to address issues pertaining to the goal of a
          seamless federal-state-local food safety system.11 In particular, these work groups are
          addressing issues relevant to Federal oversight of State inspections. Federal and State
          officials have called for a framework that includes “equivalent minimum regulatory
          standards; adequate training of inspectors; information exchange on inspection results;
          verification of performance; and enforcement.”12

This Inquiry and Report

          This study focuses on FDA oversight of State inspections conducted under State food
          contracts and partnerships agreements.13 These inspections focus on food manufacturing
          and processing firms. Throughout the report, we refer to these inspections as food firm
          inspections.14 We do not address State contracts related to medicated feed, tissue residue,
          and feed contaminants. We also exclude from our analysis other food inspection
          programs, such as Cooperative Programs pertaining to Milk, Shellfish, and Retail Foods.15
          In this study, we did not assess inspections that States are conducting independently of
          FDA, nor did we seek to assess the quality of State inspections.

          Our inquiry draws on a variety of sources. These include: an analysis of FDA’s national
          inspection data; an analysis of FDA’s audit data; a review of all 40 State food contracts
          and a review of 19 of the 37 partnership agreements involving food inspections; a review
          of the year-end performance evaluations of States; a review of FDA’s oversight guidance
          documents; a survey of the 20 FDA district offices, for which we had a 100 percent
          response rate; a survey of the 40 State food inspection agencies holding contracts, for
          which we had a 92 percent response rate; in-depth site visits to 3 FDA district offices and
          3 States; observations of FDA joint and independent audits; and interviews with industry,
          consumer groups, and food policy experts. See appendix D for a fuller description of the
          methodology.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




FDA Oversight: A Call for Greater Accountability   13                                    OEI-01-98-00400
     FDA Oversight of State Food Firm Inspections: A Primer
1. 	Three Types of Food Firm Inspections:                        FDA and State food firm inspections fall into one of
     three categories. This report focuses on inspections in the middle category.


              State Inspections                        State Inspections                FDA Inspections
                                                   in Association with FDA

        The States oversee all food         There are two types of arrangements     FDA oversees all food
        firms operating within their        through which States may conduct        firms involved in
        State boundaries, regardless        inspections in association with FDA:    interstate commerce. FDA
        of whether the firms are also                                               district offices conduct
        subject to FDA oversight.           Contracts: FDA pays the States to       these inspections in accord
        The States conduct these            conduct these inspections. They are     with Federal inspection
        inspections under their own         conducted by the States under the       laws and procedures. The
        authorities and procedures.         auspices of Federal food inspection     great majority of the food
                                            laws and procedures.                    firms in this category are
                                                                                    also inspected by States,
                                            Partnership Agreements: FDA does        under State authorities.
                                            not pay the States to conduct these
                                            inspections, although it may provide
                                            training and equipment to the States.
                                            These are essentially State
                                            inspections, for which the States
                                            share information with FDA. The
                                            States conduct these inspections
                                            under their own authorities and
                                            procedures.



2. FDA Oversight of the Contracts:
Audits: FDA conducts audits of State inspections. These can take the form of independent audits that occur within
30 days of a State inspection, or joint audits that are conducted concurrently with the State. FDA audit standards
call for district offices to conduct a level of audits proportionate to the number of inspections under each contract.

Contract Inspection Reports: FDA reviews contract inspection reports. States submit these reports to FDA within
15 days of completion of an inspection. They are standardized forms, designed in accordance with Federal food
inspection laws.

Semi-Annual Evaluations: FDA evaluates State performance twice a year. These evaluations are designed to
summarize audits conducted, deficiencies found in food firms, and provide an assessment of State performance.

3. FDA Oversight of the Partnership Agreements:
Joint Inspections: FDA conducts inspections jointly with the States. Standards for the number of joint inspections
vary with each partnership agreement.

State Inspection Reports: FDA reviews State inspection reports. These reports vary according to a State’s laws and
procedures. Standards for report submission vary with each partnership agreement.

Annual Evaluations: FDA conducts an annual assessment jointly with the States. These evaluations are designed
as an overall evaluation of the work accomplished.

FDA Oversight: A Call for Greater Accountability            14                                          OEI-01-98-00400
       THE IMPORTANCE OF OVERSIGHT

          An effective food safety system depends upon the collective effort among Federal and
          State government agencies. States offer an important source of industry coverage, as well
          as front-line inspection expertise. Federal oversight of State food firm inspections plays a
          key role to ensure the quality and uniformity among both Federal and State inspections.
          Below we identify and describe three fundamental factors that underscore the importance
          of FDA oversight of State food firm inspections.

FDA relies heavily on State food firm inspections.

          States, through contracts and partnership agreements, inspect a greater number of
          food firms than FDA.

          In the past 3 years, the States conducted through contracts and partnership agreements, on

          average each year, 61 percent of

          food firm inspections recorded in

          FDA’s national database. We found

          that the States inspected an average

          of 7,032 food firms per year, while

          FDA inspected an average of 4,391

          (see figure 1). FDA’s reliance on

          State food firm inspections has

          remained consistent over the past 10

          years (see appendix E). 


          We found several cases in which

          FDA relies on States to inspect a

          significantly higher proportion of

          food firms. In Texas, for example,

          the State inspected 5 times as many

          food firms as FDA did in 1998.16 In

          Alaska, which accounts for over half
                                           Source: FDA
          of seafood processed in the United

          States, FDA relies on the State to inspect all fishing vessels (about half of the seafood

          industry in Alaska) and all food firms in remote areas.


          In general, FDA’s reliance on State inspections plays an important role in reducing

          regulatory duplication among Federal and State food safety efforts, and in extending

          FDA’s inspection coverage of industries within States.





FDA Oversight: A Call for Greater Accountability   15                                      OEI-01-98-00400
          State inspections are increasingly focused on high-risk food firms.

          In response to our survey, 10 of the 17 FDA district offices overseeing contracts reported
          that, over the past 5 years, an increasing proportion of contracted food firm inspections
          have focused on high-risk food firms.17 Inspections of warehouses, which have been
          traditionally considered a low-risk type of food firm, have been almost completely
          eliminated from the State food contracts. For fiscal years 1999 and 2000, FDA guidance
          calls for assignments to the States to emphasize high risk areas. These include seafood,
          low-acid canned food, and microbiological health hazards.

          Under partnership agreements, an even greater number of inspections focus on high-risk
          food firms. In response to our survey, 11 of 17 FDA district offices overseeing
          partnership agreements reported that more than half of the food firm inspections carried
          out by States under partnership agreements focused on high-risk food firms. In a number
          of cases, inspections of high-risk food firms, such as those involving seafood and low-acid
          canned food, have shifted from contracts into partnership agreements.18

          FDA officials consistently reported that demands on inspection resources have
          necessitated increasing reliance on States to inspect high-risk food firms. Indeed, States
          may have expertise and resources beyond that of FDA. We were unable to obtain exact
          data on the risk-level of food firm inspections assigned to States because FDA lacks a
          systematic mechanism for assigning risk.

          State partnership
          agreements, which rely
          primarily on State
          authorities and
          resources, are becoming
          a significant source of
          food firm inspections.

          In 1998, about 43 percent

          of the State food firm

          inspections conducted in

          association with FDA were

          conducted through

          partnership agreements. 

          Over the past 10 years, the

          number of contract

          inspections has dropped by

          45 percent.19 FDA has

                                                                                    Source: FDA
          relied heavily on

          partnership agreements to

          meet its inspection priorities and to maintain industry coverage. In 1998, States

          conducted nearly as many domestic food safety inspections under partnerships as FDA

          did.20


FDA Oversight: A Call for Greater Accountability   16                                    OEI-01-98-00400
          Partnership agreements, in large part, have arisen as a practical adaptation to resource
          constraints. Over the past 10 years, funds to support the State food contracts have
          remained constant while the complexity and cost of food firm inspections has increased.
          We found that, with the addition of partnership inspections, States are conducting about
          the same proportion of inspections, relative to FDA, as they did a decade ago (see
          figure 2).

States vary significantly in their inspection capacities.

          Based on data from our survey and from FDA’s national database, we identified variation
          among State inspection programs along five key dimensions: inspection classifications,
          enforcement authorities, inspection authorities and regulations, inspector education and
          training requirements, and hours per inspection.21

          The variations among State inspection programs raise concerns about the quality and
          uniformity with which FDA’s food inspections are carried out. Under partnership
          agreements, which have become a significant source of State inspections, FDA relies fully
          on the States’ inspection authorities and resources. The shift to a nationally integrated
          food regulatory system, under which States would take primary responsibility to inspect
          food firms, will make concerns about the consistency of State programs even more
          pressing in the coming decade.

          Variation in State inspection classifications.

          Based on our analysis of national inspection data, we found variation in State inspection
          classifications for contracted inspections. Between 1996 and 1998, over half of the States
          failed to classify even one inspection as Official Action Indicated, which would indicate
          that serious violations were found during the inspection.22 During this same time period,
          two States classified almost one-fourth of their inspections as Official Action Indicated.
          We present the State-by-State variations in appendix F.

          Several factors may contribute to the variation in State inspection classifications for
          contracted inspections. First, not all States conduct inspections of high-risk food firms.
          The States that conduct inspections of low-risk food firms could be less likely to find
          violations warranting severe classifications. Because FDA does not have a mechanism to
          classify the risk of a food firm, there is no way to evaluate the impact of inspection risk on
          State inspection classifications. Second, FDA district offices vary in their guidance to
          States in cases where the State has taken an enforcement action under its own authority.
          Some district offices may guide States to classify an inspection as No Action Indicated,
          while others may guide the State to use an inspection classification congruent with the
          State’s enforcement action. These factors raise questions about the reliability of FDA’s
          data on inspection classifications and enforcement actions taken by States on inspections
          conducted for Federal purposes.




FDA Oversight: A Call for Greater Accountability    17                                     OEI-01-98-00400
          Variation in State enforcement authorities.

          We identified wide variations in State enforcement authorities based on our State survey
          responses. Eight of 36 States responding to our survey reported that they lack the
          authority to revoke a food firm’s permit or license; 13 States lack access to all firm
          records; and 2 States lack immediate embargo authority. See appendix G for a
          distribution of State enforcement authorities.

          FDA itself lacks many of these important authorities. It does not have the authority to
          revoke a State-issued food firm license; it cannot immediately embargo food suspected of
          being adulterated while conducting an inspection; and in most cases, it cannot review all of
          a food firm’s records without a Federal warrant. In cases where such actions are
          warranted, FDA must rely on States. It is a significant problem, however, when a food
          firm’s license needs to be revoked or a food product embargoed, and neither FDA nor the
          State have the authority to do so.

          Several Federal officials and consumer groups raised concerns about States’ willingness to
          take enforcement actions in the face of industry and economic pressures. Their concerns
          were heightened for States that are economically dependent on food processing and
          manufacturing firms. Some State officials we spoke with indicated that they prefer to let
          FDA take action in these sensitive situations.

          Variation in State inspection authorities and regulations.

          In our survey of State officials, 5 of 37 States reported that their laws and regulations are
          not equivalent to the Federal Food, Drug and Cosmetic Act; another 4 States reported
          that they have not adopted Good Manufacturing Practice laws equivalent to Federal
          standards. The majority of other States operate under statutes containing language similar
          to Federal statutes.

          The lack of uniform regulations among States, and between FDA and the States, is of
          concern because it means that food firms are held to different inspection standards. We
          identified, for example, a case in which FDA and a State differ in their implementation and
          interpretation of the Seafood HACCP inspection requirements with regard to what
          constitutes a hazard. FDA requires that food firms identify the presence of undeclared
          allergens or have critical control points to ensure that their labels correctly declare such
          substances. In evaluating a firm’s HACCP plan, FDA will ensure that the food firm has
          identified the hazard and has the appropriate controls in place. By contrast, the State may
          check the food product’s label to ensure that all ingredients are listed but does not require
          the firm to identify allergens as a hazard in its HACCP plan or to have controls in place at
          a critical control point.

          Under contracts, States are required to conduct inspections in accordance with FDA laws
          and procedures. Under partnership agreements, however, FDA has no authority to
          mandate that States use similar inspection criteria or that they rely on standard critical

FDA Oversight: A Call for Greater Accountability   18                                     OEI-01-98-00400
          control points. As one FDA official put it, when discrepancies are raised at regional
          meetings, the best FDA can do is simply “agree to disagree” with the States.

          Variation in State inspector education and training requirements.

          As food manufacturing and processing has become more complex and technical, inspector
          expertise and training is more pressing. Twenty-three of 35 States responding to our
          survey require a college degree including science courses, which is equivalent to FDA’s
          own standard.23 Eleven States have less stringent requirements. These range from a high
          school diploma to a college degree without a science background. The States responding
          to our survey also reported wide variation in the level of training provided to inspectors,
          ranging from fewer than 5 days per year to over 15 days. See appendix H for a
          distribution of State inspector education and training requirements.

          FDA provides limited training for the States in the areas of manufacturing and processing
          inspections. Such training must come out of the district offices’ own budgets. In an era
          of diminishing resources, many district offices are hardpressed to find the resources to
          conduct such training. Even when training is available, States are expected to fund their
          own travel costs. Several States reported that limited funding and travel restrictions had
          routinely prevented them from attending FDA training.

          With the exception of the Seafood HACCP certification program, there is no national
          program to certify the competency of food inspectors. A number of State and Federal
          officials pointed out that educational and training requirements are important, but that they
          do not guarantee an inspector’s level of knowledge or his ability to incorporate inspection
          theory into practice. FDA has begun to move in the direction of voluntary certification in
          its seafood HACCP program. This certification program, which involves a written exam
          and an on-site performance review, has been well received by Federal and State
          inspectors. Many view the Seafood HACCP certification program as an important step
          toward promoting uniformity and consistency in inspections.

          Variation in State inspection times.

          Based on our analysis of national inspection data, we found that between 1996 and 1998
          the average length of State contract inspections ranged from 2.8 to 9.5 hours among
          States. The average time overall for States was 5.7 hours per contract inspection with a
          standard deviation of 1.5 hours. The variation in State inspection times may be even
          greater under partnership agreements than under food contracts. Under partnership
          agreements, the States follow their own procedures and use their own forms. A number
          of State officials told us that they generally conduct shorter inspections than FDA, but at a
          higher frequency. We present State-by-State variation in appendix F.

          A number of factors may influence the amount of time a State spends inspecting a food
          firm. These include the complexity of the inspection, the firm’s size, the risk of the
          processing and manufacturing operations, and the inspector’s familiarity with the food

FDA Oversight: A Call for Greater Accountability   19                                     OEI-01-98-00400
          firm. However, given the other evidence we present on variation among States, we raise
          concerns that the variations among inspection times may well indicate differences in the
          quality and thoroughness of inspections.

Variation in State regulatory programs can inhibit commerce.

          The variation in State laws and inspection practices adds complications, costs, and
          frustrations for food firms engaged in multi-State commerce. These firms are already
          subject to significant variation in inspection regulations and practices among the Federal
          food inspection agencies. Industry representatives have expressed concern that an even
          heavier reliance on State inspections, such as under a nationally integrated regulatory
          system, could magnify the existing complications and costs. They are calling for uniform
          laws and inspection standards across the nation and for strong Federal oversight as a
          means of fostering and maintaining consistency among State inspections.

          To our international trading partners, variation in State laws and inspection practices can
          undermine confidence in the uniformity of U.S. food standards and enforcement efforts.
          Some countries have raised concerns about discrepancies in U.S. food laws. For example,
          FDA prohibits the sale of raw milk and unpasteurized cheese in interstate commerce; yet,
          at least one State allows the commercial sale of such products within its State borders.
          This discrepancy has resulted in tension between the U.S. and foreign trading partners
          wishing to import unpasteurized cheese. Our foreign trading partners have also raised
          concerns about the lack of uniformity for inspections of imported products. This problem
          may be exacerbated if imported products are inspected under the partnership agreement
          mechanism.24 Others have raised concerns that variation in State inspection practices and
          laws may lead some trading partners to concentrate imports in more lenient States.




FDA Oversight: A Call for Greater Accountability   20                                   OEI-01-98-00400
                                      FINDINGS

FDA’s oversight of State food firm inspections is limited.
Under contracts, FDA obtains minimal information to assess the quality of State
food firm inspections.

        FDA’s on-site audits have declined.

        On-site audit inspections are a key component of FDA’s validation of State performance.
        Yet, over the past 5 years, FDA on-site audits dropped by 59 percent, from 253 in 1993 to
        104 in 1998 (see appendix I).25

        FDA’s audit standards call for its district offices to conduct a level of audits proportionate
        to the number of inspections under each contract.26 Yet, the majority of district offices
        failed to meet these standards. In 1998, 7 of the 17 district offices overseeing State food
        contracts did not conduct a single audit.27 Many of district office officials we spoke with
        did not view on-site audits as a priority. In fact, many stressed that on-site audits were
        unnecessarily “duplicative of State efforts.”

        The distribution of audits is widely disproportionate among States with contracts. In
        1998, FDA conducted over half of its audits in only 5 of the 38 States. Those 5 States
        conducted just 13 percent of the total inspections conducted under contracts. By contrast,
        FDA did not conduct a single audit in 21 of the 38 States holding contracts. These States
        conducted over 50 percent of the contract inspections. This pattern of disproportionate
        coverage has remained consistent over the last 3 years.

        FDA’s on-site audits provide a limited basis for assessing State performance.

        FDA relies on independent and joint audits to assess the quality of State inspections.
        Independent audits, FDA’s primary audit approach, are conducted up to 30 days after the
        State’s inspection.28 The purpose of these audits is to validate whether the State’s
        inspection findings match FDA’s. During the 30 days, however, conditions in the food
        firm may have changed, introducing a margin of error in the audit findings. Furthermore,
        these audits focus on the accuracy of inspection findings and give little attention to how
        the State inspector drew conclusions. Finally, FDA’s approach to independent audits
        focuses on conditions in the food firm as a proxy for the performance of the State; the
        independent audit does not assess State performance directly.

        Despite FDA’s reliance on the independent audits, district offices consistently reported
        that the joint audits were more useful to assess the quality of State inspections. In
        contrast to the after-the-fact approach of the independent audits, the joint audits allow for
        FDA to directly observe State inspections and provide immediate feedback. State officials
FDA Oversight: A Call for Greater Accountability  21                                     OEI-01-98-00400
          also emphasized the benefits of joint audits in improving the quality of their inspections.
          Nevertheless, FDA provides limited guidance on how to conduct the joint audits. Several
          FDA officials raised concern that FDA auditors, while trained to conduct inspections, lack
          important training and guidance on how to evaluate State performance.

          The lack of documentation further limits the effectiveness of audits as an assessment tool.
          At most, FDA auditors fill out a separate inspection report. However, the auditor does
          not document an assessment of State performance. As a result, FDA has a limited ability
          to review previous audit findings or to assure consumers, food firms, or international
          trading partners of its oversight.

          Finally, FDA may not be appropriately selecting its audits. According to FDA guidance,
          audits should represent the types of inspections under contract. Based on our site visits,
          however, we found that FDA selected food firms to audit largely based on a firm’s
          location and the auditor’s schedule. Several FDA staff questioned whether the audits
          represent State inspections of the most complex and risky food firms.

          FDA’s reviews of State contract inspection reports lack much rigor.

          During contract inspections, State inspectors complete a standardized inspection report
          documenting violations found during the inspection. This information is essential for FDA
          to understand what took place during the inspection and the enforcement actions that are
          necessary. FDA requires States to submit the contract inspection reports within 15 days
          of the completed inspection.

          In response to our survey, 14 of the 17 district offices overseeing contracts reported that
          they do not use any formal criteria to review the quality of State contract inspection
          reports. Based on our site visits, we found wide variation among district offices in
          assessing these reports. In one district office, the FDA reviewer skimmed every tenth
          report, focusing primarily on completeness of the forms. Other reviewers conducted more
          detailed reviews of each report. These reviews included, for example, assessing the
          inspectors’ ability to identify and clearly report violations found.

          FDA maintains national inspection data in its Program Operations Data System. In the
          district offices we visited, only one reviewer made use of this database to analyze
          aggregate State inspection data. While we recognize that this database contains limited
          information, it can be used to track basic trends in State work. FDA is in the process of
          implementing a new Field Activity and Compliance Tracking System that will provide
          more specific information on State inspection results.

          FDA rarely seeks input from external sources to evaluate State performance.

          An important source of State evaluation can come from external sources, such as food
          firms, trade associations, or even consumer groups. Such sources can provide information
          and perspectives that FDA inspectors would be hardpressed to match through audits and
          review of inspection reports alone.
FDA Oversight: A Call for Greater Accountability   22                                    OEI-01-98-00400
          The FDA does not proactively solicit information from external sources. For example, it
          does not take advantage of its public meetings, food safety hotline, and food safety
          websites as avenues for obtaining information about the quality of State inspections. None
          of the district office officials we spoke with had ever contacted the trade associations or
          consumer groups in their area to learn about the quality of State inspections. Instead,
          FDA district office staff told us that they typically rely on informal communications with
          industry officials at food-related conferences as their only source of external feedback.

          Industry surveys can be an important source of information about the performance of
          State inspectors. Overall, however, the district offices have initiated little outreach of this
          type. In recent years, at least one district office tried to survey food firms regarding the
          performance of its own inspectors. It appears, however, that the Paperwork Reduction
          Act and the Federal Advisory Commission Act are factors inhibiting such efforts.29

          By contrast, each of the three States we visited routinely surveyed industry for feedback
          on the quality of their own inspections. Below, we present several examples of questions
          posed in their surveys.

                                                State-Initiated Industry Surveys

                  $ Was the inspector prepared and knowledgeable about your type of operation?

                  $ Were the inspection findings adequately explained including the public health
                   significance and the relationship to the law and regulations?

                  $ Generally, Food Safety Program representatives offer options or provide
                   assistance in correcting violations or problems: (Strongly Disagree-Strongly
                   Agree)

                  $ Inspection reports left by the Food Safety Program Representative are useful in
                   correcting violations and problems: (Strongly Disagree-Strongly Agree)

                  $ How do we rate on job knowledge? (Scale of 1-5, Poor to Excellent)

                          Source: Texas Dept. of Health; Washington State Dept. of Agriculture; Maine Dept. of Agriculture




FDA Oversight: A Call for Greater Accountability                    23                                                       OEI-01-98-00400
Under partnership agreements, FDA obtains even less information to assess the
quality of State food firm inspections.

          Since their inception in 1994, partnership agreements have become a significant source of
          State inspections. In 1998, these inspections accounted for 43 percent of the total State
          food firm inspections that FDA records in its national database.30 Under partnership
          agreements, States conduct their own inspections, which FDA accepts as equivalent to its
          own. In many cases the partnership agreements involve inspections of higher-risk food
          firms than under contracts.

          FDA does not audit State performance, but participates in some joint partnership
          inspections with States.

          In contrast to the contracts, partnership agreements do not call for an on-site audit of
          State performance. Instead, the partnership agreements call for FDA and State inspectors
          to conduct joint inspections. There is no formal guidance on the purpose of these joint
          inspections.31 FDA and State officials we interviewed regarded joint inspections as a
          mechanism to provide on-site training and share inspection expertise among Federal and
          State inspectors. They repeatedly emphasized to us that an FDA audit role was
          inappropriate for inspections accomplished through partnership agreements.

          The partnership agreements contain a wide range of expectations about the number of
          joint inspections to be conducted. Among the five low-acid canned food partnership
          agreements we analyzed, the expectations ranged from “one joint inspection per year with
          each inspector” to joint inspections based on “availability of personnel and agency
          priorities” (see appendix J). FDA only has uniform standards under its Seafood HACCP
          partnership agreements, where it calls for a minimum of 5 percent joint inspections.

          Based on our site visits, FDA district offices conducted fewer joint inspections than called
          for by the partnership agreements. For example, in one district office, the States holding
          partnership agreements conducted over 500 Seafood HACCP inspections. Yet, the
          district office conducted less than 5 joint inspections total. This is less than one-fifth of
          the joint inspections called for by the Seafood HACCP partnership guidance document.

          FDA’s reviews of State partnership inspection information are even more limited
          than its reviews of contract inspection information.

          The States submit widely varied levels of information about their partnership inspections.
          In contrast to the contracts, where FDA requires States to submit standardized inspection
          reports within 15 days of completion of an inspection, FDA district offices and States
          negotiate different levels of information sharing in each partnership agreement. Our
          analysis of five low-acid canned food partnership agreements revealed expectations
          ranging from “periodic inspection summary reports” to the “prompt exchange of full
          inspection reports” (see appendix J). Even in cases where FDA obtained full State
          inspection reports, the reports were based on the States’ own inspection procedures and

FDA Oversight: A Call for Greater Accountability   24                                     OEI-01-98-00400
          codes. In several cases these reports lacked elements required in FDA’s inspection
          reports. One State, for example, based its inspection report on a checklist that lacked
          elements to record observations of a firm’s processing methods and a narrative section to
          describe violations found during inspections.

          During our site visits, we identified a number of partnership agreements where FDA did
          not obtain enough information to assess the quality of State inspections. In several
          seafood HACCP partnership
          agreements, for example, FDA
          did not obtain a narrative                              The Oklahoma Pilot
          description of violations found.
          Without a narrative portion,          In 1994, FDA entered into a 5-year pilot partnership
                                                agreement with the State of Oklahoma, under which the
          FDA reviewers were unable to
                                                State conducts all of the food firm inspections within the
          assess the significance of            State, including products subject to interstate commerce.
          violations or the thoroughness        FDA does not conduct any inspections in the State.
          of the inspection. Under the
          Oklahoma Food Safety                  On a quarterly basis, Oklahoma submits a spreadsheet of
          Partnership Agreement, which          inspection data. The spreadsheet provides only
                                                information on inspection results, and lacks information to
          is significant because the State      assess the quality of inspections.
          has agreed to inspect 100
          percent of the food firms within      Outside of this spreadsheet, the partnership calls for an
          the State, FDA obtains                annual performance evaluation. Since 1995, however,
          extremely limited information         FDA has conducted only one performance evaluation of
                                                Oklahoma’s food manufacturing and processing
          to assess the quality of State
                                 32             inspections. A second audit is planned for fiscal year
          inspections (see box). While          2000. In preparation for this audit, the FDA has offered
          this may represent an extreme         several training courses to State inspectors.
          case, nevertheless it raises
          concern about the level of
          information FDA receives through the partnership mechanism.

          FDA has less accountability for the enforcement actions that States take under partnership
          agreements than it does for enforcement actions that States take under contracts. Under
          contracts, FDA reserves the right to approve a State’s inspection classifications and
          enforcement actions, and to take action itself when necessary. Under partnership
          agreements, however, FDA simply accepts the State’s inspection classifications and
          enforcement actions. FDA does not outline clear expectations to share information about
          enforcement actions taken under partnership agreements (see appendix J).33 By contrast,
          FDA requires States to regularly submit full documentation of all enforcement actions
          taken under contract.




FDA Oversight: A Call for Greater Accountability      25                                        OEI-01-98-00400
FDA provides limited feedback to States on the quality of their inspections.

          Two-way communication is an essential component of an effective oversight system. The
          information that FDA obtains can provide an important source of evaluation for State
          programs. Feedback is especially important to help States identify weaknesses and to
          improve the quality of inspections. Feedback can also facilitate the exchange of expertise
          or resolve discrepancies between FDA and State policies.

          The majority of FDA’s ongoing feedback to States relies on informal communication
          and individual district office initiatives.

          FDA does not routinely provide States with feedback concerning its on-site audits or
          reviews of inspection reports. While feedback may occur informally over the telephone or
          in person, many of the State officials we spoke with told us that they would like to receive
          written feedback from FDA regarding the narrative portions of their inspection reports and
          the results of FDA’s audits. As we stated earlier in this report, FDA’s assessment of the
          information it obtains through audits and inspection reports is limited. As such, the FDA
          has limited basis to provide States with useful feedback.

          Where FDA does provide feedback, it depends on initiatives of individual district offices.
          In one district office we visited, FDA provided States with a periodic assessment of
          problems found in their inspections reports. The State officials reported that this feedback
          has helped to improve the quality of their inspections.

          FDA’s performance evaluations provide States with little feedback about the quality
          of State inspections.

          The only formal mechanisms through which FDA documents its evaluation of State
          performance are a semi-annual State contract evaluation and an annual partnership
          evaluation.34 Based on our review, however, these evaluations provided limited
          assessment of the quality of State inspections.

          We found that 13 of the 34 semi-annual contract evaluations we analyzed for 1998 did not
          provide any assessment of State performance. Fourteen of the 34 evaluations provided
          only minimal assessment of State performance, offering cursory and general comments
          such as ‘overall history of performance has been good’ or ‘no deficiencies reported.’ Only
          seven of the evaluations provided more details in their assessment of State performance,
          such as problems found with inspection reports, or changes in State personnel that
          affected performance (see appendix K).

          FDA’s annual partnership evaluations were equally limited in their assessment of State
          performance. Ten of the 17 partnership evaluations we analyzed for 1998 contained broad
          summary statements of activities and little evaluation of the States’ performance. For
          example, statements included “Communication and coordination efforts between parties
          were improved. Resources were better utilized to meet goals of the partnership. The

FDA Oversight: A Call for Greater Accountability   26                                    OEI-01-98-00400
          goals of the partnership were met.” Seven of the annual evaluations provided more detail
          in their assessment of inspections accomplished. These evaluations included comments
          that addressed in more depth, for example, the quality and consistency of inspections, the
          extent and nature of communication between the partners, and recommendations to
          improve work in the future. Most of the district offices we interviewed seemed to regard
          the partnership evaluations as a means to communicate a summary of activities to
          headquarters, as opposed to a tool to evaluate State performance (see appendix L).

          The majority of States never received copies of the 1998 evaluations, further limiting their
          usefulness as tools for feedback. In their survey responses, over two-thirds of the States
          holding contracts reported that they did not receive a copy of the semi-annual contract
          evaluations. Over half of the States holding partnership agreements reported that they did
          not receive a copy of the annual partnership evaluations.

          FDA’s feedback places little emphasis on improving the quality of State inspections.

          FDA’s feedback is geared toward identifying deficiencies rather than toward enhancing
          State performance. Generally, the States only hear from FDA regarding their performance
          if there is a significant problem. Several State officials emphasized that FDA’s
          assessments should include evaluation of both strengths and weaknesses.

          FDA is in a strategic position to observe best practices among the States and to
          disseminate this information widely. Where FDA district offices have shown initiative in
          this direction, the results have been positive. For example, one district office promotes
          information sharing through annual meetings and a monthly conference call. Both the
          district office and the States report that these initiatives have facilitated communication
          and raised awareness of innovative practices. FDA, however, does not generally take
          advantage of its position to facilitate this type of information sharing.


.




FDA Oversight: A Call for Greater Accountability   27                                     OEI-01-98-00400
FDA provides limited feedback to the public regarding its oversight of contracts
and partnership agreements.

          Providing information to the public is an important mechanism through which government
          agencies can hold themselves and the bodies they oversee accountable. With advances in
          information technology, it has become increasingly easy to provide the public with
          information. FDA has several websites, a telephone hotline, and a facsimile information
          service through which it can make information available to the public. 35

          FDA does not make information available to the public about its reliance on State
          inspections or about State performance.

          Despite FDA’s extensive reliance on States to inspect food firms, it shares little with the
          public about the extent and nature of its reliance. The FDA website does not identify the
          States with which it holds contracts or the number and type of inspections that States
          conduct under contract. The website provides slightly more information about partnership
          agreements, but lacks specific information such as the number and types of inspections
          conducted under each partnership agreement. We called the FDA hotline to learn about
          State inspections conducted on FDA’s behalf and were told that the only way to obtain
          such information was to contact the States directly or to submit a Freedom of Information
          Request.

          FDA provides no information to the
                                                          The State of Alaska makes the following types
          public about its oversight or                   of information available on its website:
          assessment of State performance. For
          example, FDA does not provide                   • 	Percentage of domestic seafood production
          information about the mechanisms it                originating from Alaska and an overview of
          uses to oversee States nor the extent to           food facilities within the State.
          which it carries out these
                                                          • Number of high-risk inspections accomplished
          responsibilities. FDA does not make               vs. number of inspections conducted based on
          available any assessment of State                 a risk model.
          performance and does not provide
          information about the results of State          • Trends in violations and compliance actions.
          inspections conducted on its behalf.
                                                          • Number of State and nation-wide deaths and
          By contrast, a few States are posting             illnesses associated with food products.
          performance measures on their own
          State websites (see box.)                           Source: www.state.ak.us:80/dec/deh/safefood.htm, 12/6/99


          Consumer advocates and industry
          representatives repeatedly told us that they would like more information about FDA’s
          reliance on States and the mechanisms through which FDA oversees these inspections.
          Such information would provide an important source of FDA accountability to the public.




FDA Oversight: A Call for Greater Accountability     28                                                   OEI-01-98-00400
FDA faces significant barriers in overseeing State food firm
inspections
Low priority of food safety inspections.

          No statutory requirement exists for FDA to inspect a minimum number of food firms, as
          there is in other programs within FDA’s purview, such as inspection of mammography
          facilities. In developing its work priorities, FDA must allocate resources to the mandatory
          inspection areas first. The resources that remain go to the non-mandatory programs, such
          as food firm inspections. Over the past decade, FDA’s regulatory responsibilities have
          increased, while FDA’s resources have not kept pace. Without mandatory requirements
          to conduct food inspections, resources to conduct these inspections have diminished. For
          example, the number of operational full time equivalents in the district offices have
          declined in almost all food areas, excluding fish and fishery products.36

          Within the food inspection program, resources to conduct oversight of the State food firm
          inspections compete with FDA’s own inspection resources. At present, FDA manages to
          inspect only a small fraction of the food firms under its own purview.37 In developing its
          annual work plans, FDA does not set aside resources to conduct oversight. In response to
          the limited resources available for oversight, a number of district offices have spread
          oversight responsibilities, previously held by one supervisor, to several FDA inspectors.
          Many of these inspectors carry full inspection loads, leaving little time for oversight.

Limited leverage to oversee partnership agreements.

          The majority of State and Federal officials we spoke with were uncomfortable with the
          concept of FDA overseeing the partnership agreements. Many of them underscored the
          fact that States agreeing to conduct inspections under partnership agreements are doing
          FDA a favor by helping the agency to extend its inspection coverage at a low cost.
          Several officials also pointed out that the basic principle of partnerships, whereby each
          partner accepts the other’s work as equal, contradicts the need for Federal oversight.

          Because FDA is not paying its partner States to conduct inspections, it has limited ability
          to require States to submit information, to provide critical feedback on inspections
          conducted, or to facilitate change in the State’s inspection habits.38 This concern is
          heightened under Seafood HACCP inspections, where States may not be adequately
          shifting from inspections focusing on basic observations of sanitation to a science-based
          assessment of a food firm’s hazard prevention and control processes.

          FDA’s oversight of partnership agreements is further weakened by its lack of incentives to
          terminate partnership agreements. Because FDA cannot afford to conduct these
          inspections itself, there is little incentive to terminate the partnership agreements.
          Furthermore, in contrast to the contracts, there are few financial consequences for States
          that do an inadequate job of inspecting food firms.

FDA Oversight: A Call for Greater Accountability   29                                    OEI-01-98-00400
Reductions in training and agency expertise.

          In the past decade, formal classroom training for FDA inspectors declined significantly.
          We found that training hours received by FDA personnel decreased by 41 percent between
          1992 and 1998. In 1992, FDA personnel received 23,749 hours of training; in 1998, FDA
          personnel received 13,992 hours. Where training has been provided, it focused on
          Seafood HACCP, as opposed to manufacturing and processing inspections.

          In a number of States, the FDA is conducting only a minimal number of inspections.39
          FDA district office officials consistently raised concerns about whether they were retaining
          enough workload to ensure program area competence. FDA has not set forth a minimum
          level of Federal inspections to be conducted in each State.40 Several officials within FDA
          were concerned that agency expertise is unevenly distributed throughout the country.
          FDA’s diminishing inspection expertise raises concern about its effectiveness in overseeing
          the States.

Limited accountability of FDA district offices.

          FDA has set forth general guidelines for its oversight of State food firm inspections, but
          has few mechanisms to ensure the uniformity and effectiveness of the oversight carried out
          by district offices. FDA does not provide audit training for FDA inspectors nor does it
          have mechanisms to ensure that audits are carried out appropriately. Annually, FDA
          headquarters compiles a summary of audits conducted by the district offices. In the past
          few years, however, many district offices have not submitted this information to
          headquarters. Furthermore, FDA lacks a system for district offices to track time they
          spend on oversight activities. As a result, FDA headquarters is unable to hold district
          offices accountable for how effectively they deploy their limited resources.

Lack of important enforcement authorities.

          FDA lacks the authority to revoke a food firm’s license, to immediately embargo food
          suspected of being adulterated, and to access all of a food firm’s records without a Federal
          warrant. Most States have access to these authorities. FDA consistently relies on States
          to take such actions, because they are subject to fewer legal and administrative loopholes,
          and because States can often take action more quickly.

          Several FDA and State officials have raised concerns that FDA’s reliance on State
          enforcement authorities compromises its ability to be critical of State inspections. On the
          one hand, FDA needs to ensure the adequacy of State inspections. On the other, it needs
          to maintain a good relationship with the States. In our 1991 report on food safety
          inspections, we raised concerns about the adequacy of FDA’s enforcement tools and the
          negative ramifications of FDA’s reliance on States.41 In 1999, the Canadian Food
          Inspection Agency also raised concerns about FDA’s limited powers and its reliance on
          State enforcement authorities.42


FDA Oversight: A Call for Greater Accountability   30                                    OEI-01-98-00400
                             RECOMMENDATIONS

Key Role of State Government

          State governments play a critical role in ensuring the safety of the nation’s food supply,
          both under their own authorities and in concert with FDA through contracts and
          partnership agreements. They provide valuable resources and expertise that serve as a
          complement to FDA’s own inspection efforts. Our recommendations recognize and build
          on the importance of this State role.

Template for Reform

          For State inspections carried out under FDA auspices, it is essential that FDA provide
          effective oversight to ensure both the quality and uniformity of inspections. FDA brings
          important strengths to this oversight role through a tradition that emphasizes science-
          based research and a public health perspective. Moreover, on the front-lines FDA
          oversight is carried out by many knowledgeable and dedicated staff. We met many of
          them and were impressed by their commitment to food safety.

          But our review has revealed major shortcomings in FDA’s current system for overseeing
          State food firm inspections. In this section, we recommend actions FDA can take to
          address these shortcomings and to develop a system of oversight that holds the States
          more fully accountable for the inspections they conduct in association with FDA. Our
          recommendations are based on a template of effective oversight that includes the
          following seven key elements.



                                      Template For Effective FDA Oversight
                                         of State Food Firm Inspections

         U Equivalency: Equivalency in Federal and State safety standards, inspection
           programs, and enforcement practices.
         U On-site Audits: An effective on-site mechanism for evaluating State inspection
           performance.
         U Inspection Information: Routine submission of standardized information on
           State inspections.
         U External Sources: Information from varied external sources on State inspection
           performance.
         U Feedback to States: Substantive and timely FDA feedback to States on
           inspection performance.
         U Internal Capacities: Enhanced FDA capacities to conduct effective oversight.
         U Public Information: Proactive public disclosure of inspection and oversight
           information.

FDA Oversight: A Call for Greater Accountability      31                                OEI-01-98-00400
          The specific recommendations that flow from this template are in accord with the National
          Academy of Science’s call for a Federal food safety system with “well defined
          accountability” and “responsibility for each partner in the system.”43 The Academy calls
          for FDA to devote more attention to building and carrying out an effective oversight
          system. FDA itself, through the Center for Food Safety and Applied Nutrition, has made
          the evaluation of State inspection programs a top agency priority for the year 2000.44 We
          recognize that in an environment of limited resources and competing priorities, such
          attention is not easily or readily provided. However, we feel that oversight is a critical
          area that FDA should not neglect. These recommendations should be viewed as a
          blueprint for action that can be carried out over a period of time.

          In the following pages, we elaborate on the seven elements in the template. We begin,
          however, by offering a caution concerning FDA’s reliance on partnership inspections. The
          partnership agreements, as we have indicated earlier, have grown to account for 43
          percent of the State food firm inspections conducted in association with FDA.

An Initial Caution: FDA should reevaluate its dependence on
partnerships as a mechanism for conducting inspections.
          FDA’s increased reliance on partnership inspections is understandable. In an environment
          of limited resources, it is a practical way of extending inspection coverage at little cost.
          FDA provides the States with certain benefits, mainly in the form of training or technical
          assistance, and the States agree to conduct inspections at their own cost.

          But the operational reality is disturbing. The inspections that States carry out under
          partnership agreements are primarily inspections that they already conduct under their own
          State requirements. In most cases, State officials felt that they were doing FDA a favor by
          including inspections under the partnership agreements, a feeling which FDA district office
          officials were well aware of. Thus, FDA is not in a position to exert much leverage in
          overseeing the inspections. In fact, both FDA and State officials tend to see FDA
          oversight of partnership inspections as an anomaly in what they regard as a partnership of
          equals.

          We suggest that current conditions are counter to effective FDA oversight of partnership
          inspections. FDA uses partnership agreements as vehicles to accept State inspections as
          equivalent to its own. While many of the State inspections may well be of high quality,
          FDA is not in a position to adequately assess their quality or equivalency. For its
          oversight to be credible, it must be able to offer such attestation. If FDA moves in the
          directions we call for below, then the time will come when partnership agreements can
          serve more reliably as a mechanism for FDA-State collaboration.

          In the recommendations that follow, we take the position that a two-tier FDA system of
          oversight is inappropriate. Oversight geared to partnership inspections must be just as
          effective as that geared to contract inspections. While there can be some differences in
          approaches, FDA must be able to assure consumers that its commitment to safety is no
FDA Oversight: A Call for Greater Accountability   32                                    OEI-01-98-00400
       less under one mechanism than the other. And, similarly, it must assure industry officials
       and international trading partners that its commitment to quality and uniformity is
       independent of the vehicle through which inspections are conducted. Thus, we offer our
       recommendations as actions FDA can take to hold States more accountable for food firm
       inspections conducted under both contracts and partnership agreements.

       Recently, FDA assigned the Office of Regulatory Affairs Federal-State Field Advisory
       Committee the task of developing acceptable language for the oversight of partnership
       inspections for inclusion in the partnership guidance document. We encourage this
       committee to address the concerns and recommendations highlighted in this report.

Recommendation 1. FDA should work with the States to
achieve basic equivalency in food safety standards and laws,
and in inspection programs and practices.
       In many respects, a common set of standards for industry to comply with and for State
       and Federal inspectors to apply in their inspections provides an essential foundation for
       effective oversight. FDA oversight of State inspections has only limited value without a
       common frame of reference.

       Standards for State inspection programs already exist in several areas of our nation’s food
       safety system. The Department of Agriculture has program standards for States
       participating in its meat and poultry inspection program. The Conference for Food
       Protection recently established voluntary standards for retail food inspection programs.
       These standards are now being tested in six States.

       The National Uniform Criteria work group within the National Food Safety System
       (NFSS) project is exploring national standards that would achieve uniformity among food
       safety programs. We recognize that FDA and the States face a number of barriers in
       moving toward greater consistency and uniformity in food safety inspection and
       regulation. We encourage FDA to continue to take leadership in working with the States
       and the NFSS project national work groups to accelerate progress in this direction.

1a. Pilot test a system audit as a mechanism to foster equivalency and evaluate
State capacity and performance.

       A system audit is a comprehensive review that focuses on a State’s capacity to conduct
       food safety inspections and effectively oversee its own program. It can also add depth to
       FDA’s oversight and allow for somewhat less emphasis on audits of individual State
       inspections. The Food Safety Inspection Service of the Department of Agriculture has
       moved in this direction with its oversight of meat and poultry programs.

        For a system audit to work as an FDA tool of oversight, however, a State must have, or
        be ready to develop, standards, regulations, and inspection approaches substantially
        equivalent to those of FDA. The Role and Responsibilities work group within the NFSS
FDA Oversight: A Call for Greater Accountability 33                                   OEI-01-98-00400
       project has made considerable progress in developing a model for a system approach to
       oversight. The work group has prepared a document, “Evaluation of Regulatory Food
       Safety Systems as Part of a Nationally Integrated Food Safety System,” which has been
       forwarded to the Federal agencies involved and the President’s Food Safety Initiative. We
       applaud this work as an important reference point in developing an appropriate oversight
       model and encourage further work in this direction.

       If FDA were to find two or more States willing to test the system audit approach, the
       parties could work to advance equivalency and improve oversight. One possibility would
       be for FDA to work with one State that has laws and approaches that are similar to FDA
       and another State that lacks equivalency but is willing to work toward it. The results of
       the test could provide a laboratory for how best, over time, to integrate a system audit into
       FDA’s oversight.

Recommendation 2. FDA should devote high priority to
improving its on-site audit mechanism for evaluating the
effectiveness of State inspections.
       This is a matter of considerable importance warranting immediate attention. The on-site
       audit of State inspections serves as the core of FDA’s oversight and evaluation efforts and
       is likely to do so for some time to come. That core is deficient.

       Given the importance of the on-site audit, FDA may wish to contract for some outside
       assistance in carrying out this function. But over time, and in the interest of developing a
       nationally integrated food safety system with State agencies playing key roles, it is clearly
       desirable to strengthen FDA’s in-house capabilities to assess how well States conduct
       inspections. Below we address policy changes FDA should take governing the nature and
       frequency of on-site audits. In each case, FDA has recently undertaken some initiatives
       that move in the direction we call for. In the following three sections, we briefly elaborate
       on these initiatives.

2a. Stress joint audits rather than independent audits as the primary mechanism
to conduct on-site reviews of State inspection performance.

       Our analysis leads us to recommend that FDA rely on the joint audit as its major approach

       to on-site reviews. The joint audit allows an FDA inspector to assess first-hand the

       performance of the State inspector and to offer immediate feedback. This approach has

       considerable support among both FDA district offices and State officials.


       This emphasis on joint audits, we should note, need not preclude some use of independent

       audits. FDA should still conduct periodic independent audits on both a 

       for-cause as well as a random basis. They can serve as a valuable, albeit secondary,

       component of a strengthened oversight system.


        In a February 18, 2000 memo to the field, the Associate Commissioner for Regulatory

FDA Oversight: A Call for Greater Accountability 34                                OEI-01-98-00400
          Affairs called for a focus on joint audits for fiscal year 2000. While this action is not yet
          part of FDA’s audit policy, it represents a significant shift away from FDA’s current
          emphasis on independent audits. We encourage FDA to evaluate the implementation of
          this new approach to develop an appropriate audit strategy.

2b. Develop guidance that provides clear and firm direction on the essentials of
FDA on-site audits.

          Given the shift we recommend toward a focus on joint audits and the limited training that
          has been offered to FDA inspectors in audit and evaluation methodologies, we recommend
          that FDA develop a guidance document on the essentials of on-site audits. Such guidance
          can serve as a basis for training and as a reference point for FDA in evaluating State
          performance. It will be essential to establishing uniformity among district office audits and
          to reaching uniformity across States.

          This guidance document should clarify and specify the auditing role that FDA inspectors
          play and the performance criteria that FDA inspectors should use to evaluate State
          inspections. In contrast to the current standards, which focus narrowly on the accuracy of
          State inspection findings, FDA should develop criteria that provide a comprehensive
          review of State performance. FDA guidance should also clarify how its inspectors can
          document their assessment of State performance and the manner, nature, and timing of the
          feedback that FDA provides to States about the on-site audits. In developing this
          guidance, FDA could consider similar guidance manuals that it uses for other programs,
          such as those currently used in the Mammography Quality Standards Act program. For
          example, FDA may want to create a checklist that Federal auditors can use in evaluating
          the quality and performance of State inspections.

          FDA should seek input from its State counterparts in developing guidance about the on-
          site audits. State input is vital to developing sound performance criteria. As States and
          the Federal government move toward greater uniformity in their standards and practices,
          the on-site audit mechanism can spur consistency among food inspections.

          In at least one State, the FDA is currently developing a pilot field audit program that will
          require Federal auditors to utilize an audit evaluation form when conducting a joint audit.
          We encourage FDA to evaluate the effectiveness of this audit guidance and form and, if
          effective, to consider employing it more broadly in its oversight of State inspections.

2c. Determine the appropriate minimum frequency for on-site audits.

          For the on-site audits to serve as an effective tool of oversight, FDA must conduct them

          often enough and regularly enough for the States to take notice of FDA’s presence and for

          FDA to obtain sufficient information to assess the adequacy of the States’ inspections. 

          We documented the reduced frequency of FDA’s on-site audits for contract inspections

          and their uneven distribution across States. We also identified the infrequency and

          variation in joint inspections undertaken through partnership agreements.


FDA Oversight: A Call for Greater Accountability    35                                      OEI-01-98-00400
       We recognize that, in large measure, the frequency of on-site audits is a function of
       available resources. The same resources that the district offices draw upon to conduct
       these audits must also be used for many other activities, including FDA’s own food firm
       inspections and inspections in other program areas, such medical devices and blood banks.
       We urge that FDA, in assessing its various priorities, provide clearer direction in defining
       an appropriate minimum number of on-site audits, for both contract and partnership
       inspections, and then hold the district offices accountable for meeting the minimum.
       Given that FDA relies on States for the majority of its food firm inspections, oversight
       deserves considerable attention. Without regular on-site audits, FDA’s oversight will lose
       credibility and its capacity to attest to the quality and uniformity of State inspections will
       erode.

       In its recent memo to the field, the FDA also called for joint audits for 5 percent of the
       inspections assigned to States under contract for fiscal year 2000. Further, the memo
       further called for all State inspectors to have at least one joint inspection over the next
       three years. We encourage these efforts and urge FDA, over the coming years, to
       evaluate the implementation of these strategies for the most effective use of resources.45

Recommendation 3. FDA should require that States
routinely provide FDA with standardized information on the
inspections they conduct.
       Beyond on-site audits, a second key source of information is FDA’s on-going review of
       inspection reports. In collecting such information, FDA must seek to minimize the
       reporting burden on the States, but at the same time ensure that it has a core of
       information to provide effective oversight. Our recommendations may require contractual
       changes, but most certainly will require changes in the partnership agreements.

3a. Define a minimum set of information to collect from the States on inspections
conducted under both contracts and partnership agreements.

       The information that FDA obtains about partnership inspections is highly variable and
       depends on the States’ own policies and practices. In contrast, FDA obtains standardized
       information about contract inspections. This information includes contract inspection
       reports with narrative portions, information to assess a firm’s compliance with FDA
       regulations, and a detailed description of a food firm’s manufacturing processes.46

        We recommend that FDA define the core set of information it regards as essential for
        oversight of State food firm inspections and then require that States provide it under both
        contract and partnership agreements. We urge that State enforcement actions be part of
        that essential core. At present, FDA lacks information about enforcement actions that
        States take under their own authority for contract inspections. FDA almost always lacks
        such information with respect to partnership inspections since enforcement actions under
        that arrangement are typically taken under State authority. For FDA to assess how and
        how well States are performing, it must be fully and accurately informed on the extent and
FDA Oversight: A Call for Greater Accountability 36                                     OEI-01-98-00400
          type of enforcement actions the States take. We urge FDA to use information that will be
          available through the Field Activity and Compliance Tracking System to analyze and track
          enforcement actions taken by States for inspections conducted in association with FDA.

3b. Provide guidance to district offices addressing the extent and nature of their
reviews of State inspection reports.

          In its guidance, FDA should provide a framework for how the district offices can best
          review inspection reports submitted by States. The guidance could address how and how
          often the offices might review individual inspection reports. FDA should establish uniform
          criteria by which all district offices should evaluate the quality of State inspection reports.
          As with the criteria to assess State performance during audits, the criteria to review these
          reports should provide a level of accountability and a mechanism for providing the States
          with feedback. Again, we encourage FDA to seek input from States regarding review
          criteria that would be most useful to improve their programs.

          We also urge FDA to provide guidance to the district offices on how best to use existing
          data sources to complement their ongoing reviews of State inspections reports. The data
          that is collected and stored in the Program Operations Data System (PODS) can help
          district offices and States identify trends in State inspection practices and opportunities for
          improvement. We recognize that the current PODS database is somewhat limited, and
          thus we encourage FDA’s shift to a new system called the Field Activity and Compliance
          Tracking System (FACTS) database. This system will provide considerably more
          information that will enable FDA, for instance, to track the types of violations found and
          the types of enforcement actions taken. We are aware that the FACTS system is designed
          to accommodate enforcement actions that are characteristic of FDA’s regulatory process.
          To the extent that State enforcement processes are different from FDA’s, some
          redesigning of FACTS could be necessary. We urge FDA to consider how it can use the
          FACTS system to maximize efficiency in its oversight efforts.

Recommendation 4. FDA should draw on multiple external
sources of information in assessing State inspection
performance.
          In its recent report on improving food safety, the National Academy of Sciences called for
          FDA to ally with non-federal partners, including the food industry and consumer groups.47
          The perspectives of external sources can be a valuable complement to the information that
          FDA obtains from its on-site audits and review of inspection reports.

4a. Solicit feedback from industry, consumer, and other groups on the adequacy
of State inspections.

          FDA could transform many of its existing outreach mechanisms into avenues for public
          feedback on the quality of State inspections. For example, FDA’s food safety website is

FDA Oversight: A Call for Greater Accountability    37                                     OEI-01-98-00400
          an ideal forum through which to solicit external perspectives. FDA could create a
          separate section on its website for feedback on State inspections. Another avenue for
          obtaining feedback would be through public meetings. FDA could explicitly ask for
          comment on State performance or it could arrange to hold regular focus groups with
          industry and consumer groups.

          In addition, FDA may want to consider developing a national feedback survey for food
          firms involved in interstate commerce. It could require State inspectors to leave these
          feedback forms at the firms that they inspect in association with FDA. Many States are
          already employing such surveys under their own auspices. An option FDA may want to
          consider is requiring that States conducting their own industry surveys share results with
          FDA.

Recommendation 5. FDA should provide substantive and
timely feedback to States on their inspection performance.
          The prior three recommendations addressed the information sources upon which FDA
          should rely. But getting the information is insufficient if FDA fails to foster improvements
          and take corrective actions where necessary. It is particularly important in this regard for
          FDA to provide the States with regular, substantive feedback on what it has learned about
          their performance. In carrying out this recommendation, FDA will need to make changes
          in the language of the contracts and partnership agreements.48 These documents should
          establish clearer and more uniform guidelines for providing regular and substantive
          feedback to the States.

          In a February 18, 2000 memo to the field, the Associate Commissioner for Regulatory
          Affairs called for district offices to provide the results of the document reviews and joint
          audits to the States in writing at the completion of reviews or at least quarterly. While this
          clearly demonstrates a concerted step to improve feedback, we urge FDA to further its
          efforts in accord with recommendations below.

5a. Provide the States with ongoing and written feedback on the on-site audits it
conducts.

          At present, FDA’s formal feedback from audits is geared toward identifying deficiencies
          rather than enhancing State performance. To the maximum extent possible, the audits
          should be redirected to serve as a vehicle to help States improve and maintain good
          performance. When FDA inspectors conduct these audits, whether on a joint or
          independent basis, they should in each case prepare a summary assessment to give to the
          State. That assessment should assist in fostering continuous improvement in State
          inspection efforts. The report should reflect, as we discussed previously, standard
          performance criteria that provide States a useful basis to assess and improve their own
          performance.



FDA Oversight: A Call for Greater Accountability   38                                     OEI-01-98-00400
5b. Provide States with periodic evaluations that assess the States’ overall
performance.

          As we have noted, the annual and semi-annual evaluation reports that FDA district offices
          now prepare are more of an accounting of activities than a mechanism for accountability
          or improvement. We suggest that the time and resources spent on these evaluations could
          well be redirected. FDA should reevaluate the purpose of these reports and consider
          either enhancing their substance or eliminating them all together. In any case, the
          emphasis should turn to more flexible, ongoing evaluations.

          As FDA develops and improves its database of information on State inspection activities,
          it should draw on that, its on-site audit reports, and external sources of information to
          engage in continuing assessments of State inspection performance. These assessments
          should not just concern individual inspections but should also provide a comprehensive
          evaluation of State performance. FDA can help the States by providing them with
          summary data, thereby enabling them to assess not only their own performance but also
          how they compare with other States. FDA should determine appropriate cycles in which
          to provide this aggregate feedback.

5c. Promote information exchange on promising approaches of State programs.

          FDA has exposure to food safety inspections conducted throughout the nation, and, as
          such, is in prime position to disseminate information about promising approaches. At
          present, there are limited means for States to communicate among themselves and learn
          from best practices and experiences of other States. FDA could play a pivotal role in
          facilitating communication among States. For example, FDA could foster communication
          by using its website, organizing an electronic communication forum among State agencies,
          or initiating telephone conference calls in various regions. The promotion of voluntary
          best practices is in line with the actions items called for by the President’s Council on
          Food Safety in the Draft Preliminary Food Safety Strategic Plan.49

Recommendation 6. FDA should enhance its internal
capacities to conduct effective oversight.
          We have called for a demanding and complex oversight agenda for FDA. To carry it out,
          FDA must remain attentive to the distinctive characteristics of individual State
          governments, keep abreast of changing technologies in food processing and
          manufacturing, stay informed on the international and other forces stressing equivalency in
          food safety systems, and maintain respect for an enduring national ethic that calls for the
          minimum necessary regulation.

          Thus, we call upon FDA to appropriately equip itself. We urge that FDA consider the
          ways in which it needs to bolster its own capacities. Below, we outline four actions that
          FDA can take toward that end.

FDA Oversight: A Call for Greater Accountability   39                                   OEI-01-98-00400
6a. Ensure inspector competence in both inspection and audit functions.

       The credibility of the oversight process rests in large measure on the knowledge and skills
       of the FDA inspectors in the district offices. But with diminished training time for FDA
       inspectors and with increased regulatory responsibilities in an array of programs, FDA
       inspectors are increasingly challenged to maintain their expertise in food science
       technology and in techniques of assessing a food firm’s processes and products. We
       recommend that FDA respond to these pressures by seeking to buttress the valuable base
       of in-house expertise it has in food safety.

       As important as the latter is, there is another training area that may well warrant even
       more attention: evaluation and auditing. Expertise in conducting food safety inspections is
       essential to performing the on-site audit role for which we have called. But alone it is
       insufficient. To conduct oversight, FDA inspectors must develop an evaluation mind-set
       and learn how to go about evaluating performance. Traditionally, FDA inspectors have
       not received training of this kind.50

       One element that FDA might wish to consider as it upgrades its training is a certification
       program for FDA inspectors who audit State performance. This would be a way of
       adding some rigor and substance to the oversight role. Furthermore, this type of
       certification program is in line with the action items called for by the President’s Council
       on Food Safety in the Draft Preliminary Food Safety Strategic Plan.51

6b. Hold district offices more accountable for their performance in overseeing
State food firm inspections.

       Just as FDA must play a leading role in holding States accountable for meeting standards,
       so too must FDA hold its own district offices accountable. The move toward quality and
       uniformity must be apparent across district offices as well as across States.

       FDA should address key questions about the effectiveness of district office oversight:
       How effective are the district offices in conducting on-site audits? How effective are the
       district offices in reviewing State inspection reports? Do the district offices provide useful
       feedback to the States? FDA should work with the district offices to determine the best
       possible ways of answering such questions.

       In holding the district offices more accountable for their performance, FDA headquarters
       is in a strategic position to foster continuous improvement among the district offices. For
       example, FDA headquarters could share trend data with the 20 district offices about State
       performance and about issues and problems that the district offices have detected. FDA
       headquarters could also facilitate information sharing about innovative practices among
       the district offices.

6c. Ensure the systematic identification of all food firms in interstate commerce.

        Without access to information in a national registry, FDA must rely on a patchwork of
FDA Oversight: A Call for Greater Accountability 40                                  OEI-01-98-00400
          State information to identify the food firms it should oversee. This heightens FDA’s
          dependence on the States and impedes both its oversight and its own inspection efforts. In
          our 1991 report we recommended that FDA develop or maintain a single national registry
          or require that each State maintain its own registry and share information with FDA.52 We
          reiterate the need for FDA to have a more reliable mechanism for identifying the food
          firms under its purview.

6d. Seek broader FDA enforcement authorities.

          Many States have enforcement authorities that FDA lacks. This imbalance inhibits further
          progress toward national uniformity and hinders Federal oversight because it contributes
          to FDA’s dependence on the States. Among the enforcement authorities that would seem
          to be important are those that would allow inspectors to immediately embargo suspected
          adulterated products, to review all necessary records without a Federal warrant, and to
          photograph suspected violations. In our 1991 report on food safety, we also called for
          FDA to obtain these authorities.53

Recommendation 7. FDA should increase public disclosure
of its oversight of State food firm inspections.
          An important mechanism of accountability is public disclosure of information. Through
          greater disclosure, FDA can reinforce that States are accountable for the quality of food
          safety inspections that they conduct for national purposes.

          We urge FDA to proactively make information available about its reliance on State
          inspections and its mechanisms for overseeing State inspections. While this information is
          accessible through a Freedom of Information Act request, consumers would have a
          difficult time even knowing what to ask for. We recommend that the FDA make the
          following information available on its food safety website, its telephone hotline, or its fax
          information service:

          C	         The extent and nature of FDA’s reliance on State inspections through
                     contracts and partnership agreements: FDA could identify States with which
                     it holds partnership agreements and contracts. It could provide information
                     regarding the number and type of inspections and the risk of food firms being
                     inspected by States under these arrangements. FDA could also provide
                     information on the ratio of food firms inspected by FDA versus the States.

          C	         The extent and nature of FDA’s oversight of State inspections: FDA could
                     be more explicit about its mechanisms to oversee State inspections and the extent
                     to which it has carried out these responsibilities.

          C	         State performance: FDA could make available its assessments of State
                     performance. This could include both assessments made during audits as well as
                     reviews of the States’ inspection reports. FDA could also make available its
FDA Oversight: A Call for Greater Accountability    41                                    OEI-01-98-00400
                     annual assessments of State performance. It could consider developing a list of
                     State programs that meet certain performance standards.54

          C	         Inspection results: FDA could make available aggregate information of State
                     inspection results. This could include a summary of inspection classifications and
                     trends in critical violations and compliance actions taken. FDA could take similar
                     steps to make the results of its own inspections available.




FDA Oversight: A Call for Greater Accountability    42                                    OEI-01-98-00400
                    COMMENTS ON THE DRAFT REPORT
          We received written comments on the draft report from the Food and Drug
          Administration (FDA), the Association of Food and Drug Officials (AFDO), the National
          Food Processors Association (NFPA), the National Fisheries Institute (NFI), and the
          Center for Science in the Public Interest (CSPI).

          In general, the report was well received by each of the groups. Below, we summarize the
          major comments and, in italics, offer our responses. We incorporated several changes in
          the final report, most of which were technical in nature. The full text of each set of
          comments is included in appendix M.

The Food and Drug Administration

          The FDA welcomes our report as a tool to strengthen Federal oversight of State food firm
          inspections. The agency stresses that States can effectively augment Federal inspection
          capacity and that States provide a valuable source of inspection coverage and expertise.

          In general, FDA agrees with our recommendations and points to a number of recent
          initiatives underway that move in the direction we call for. We refer to many of these
          initiatives in our text. In response to the concerns we raise regarding oversight of the
          partnership agreements, the FDA agrees that it must “fundamentally modify the nature of
          these agreements.”

          In two areas of our recommendations, the FDA does not agree with the activities we
          suggest. First, FDA does not agree that it should draw on external sources of information
          to assess State inspection performance. The agency believes that its own audit process is
          the best way to assess State performance. Second, the agency does not directly address
          some of the specific and near-term actions we call for to increase public disclosure of its
          reliance on, and oversight of, State inspections. Instead, the agency references a future
          performance assessment of State programs and public disclosure of those performance
          assessments via the Internet.

          We recognize that FDA is dealing constructively with many of the shortcomings we
          identify in our report. We encourage the agency to continue to do so and to prioritize
          resources to meet its oversight goals. We also urge the agency to reconsider the value of
          external sources of information to assess State performance. We continue to believe that
          such information can serve as an important complement to FDA’s own audit information.
          On the matter of publicly disclosing information, we urge FDA to take immediate action
          to post State inspection performance information. Such information could include
          identification of the States with which FDA holds a contract or partnership, the number
          and types of inspections under each arrangement, the ratio of FDA-to-State inspections
          in particular States, and the FDA’s assessments of State performance through audits or
          periodic performance evaluations.

FDA Oversight: A Call for Greater Accountability   43                                   OEI-01-98-00400
The Association of Food and Drug Officials

          The AFDO strongly supports Federal oversight of State food firm inspections. It agrees
          with the major thrust of our recommendations and feels that our report is generally on
          target. The AFDO underscores the importance of the Federal-State alliance and the role
          that States can and should play in developing an oversight system. However, the AFDO
          also raises a number of issues related to FDA’s oversight. Among the issues raised, three
          areas are particularly prominent.

          On the issue of State inspection capacities, the AFDO emphasizes that the expertise of
          many State programs exceeds the expertise in the FDA district offices. The AFDO raises
          concern about FDA’s loss of “institutional memory” and questions whether all FDA
          district offices are currently in a position to adequately judge the quality and uniformity of
          State inspections. The AFDO also points out that, although documentation may be
          sparse, FDA district office staff are often in contact and familiar with the abilities of
          various State programs. Furthermore, many of the State officers are commissioned by
          FDA and therefore conduct Federal inspections, not merely State contract inspections.

          On the issue of resources, the AFDO points out that our recommendations will require
          considerable resources on the part of State programs. The oversight expectations we call
          for will require incentives that reward States for maintaining and improving their
          programs. In particular, AFDO warns that under partnership agreements, whereby FDA
          extends its inspection coverage for “next to nothing,” States may choose not to participate
          rather than accept additional reporting requirements.

          Finally, the AFDO underscores the work of the Roles and Responsibilities work group
          within the National Food Safety System project as an important reference point that FDA
          may want to consider in redesigning its oversight of State food firm inspections. The
          AFDO underscores the importance of programmatic oversight as more effective than
          oversight based on audit inspections alone. The AFDO also raises concern that our
          recommendations do not adequately address how oversight can go beyond identifying
          problems to providing a mechanism to improve performance.

          We are pleased that the AFDO agrees with the major thrust of our recommendations. On
          the issue of State food safety expertise, we recognize that the lack of FDA oversight does
          not necessarily indicate the lack of a strong State program. Our report underscores the
          importance of a strong system of Federal oversight in order to assure consumers,
          industry, and foreign trade partners about the quality and uniformity of food safety
          regulation across the nation. A system based on informal communication among Federal
          and State agencies does not carry adequate assurance that such a safety system exists. In
          regards to the concern raised about the expertise of all FDA district offices to assess
          State performance, we recommend that the FDA ensure inspector competence in both
          inspection and audit functions. We recognize that such expertise is critical to the
          credibility of the oversight process.


FDA Oversight: A Call for Greater Accountability    44                                     OEI-01-98-00400
          On the matter of resources, we recognize that States are performing inspections under
          partnership agreements for little cost to FDA. In our report, we urge FDA to reevaluate
          its reliance on the partnership agreements as an appropriate mechanism to accept State
          inspections. We continue to believe that, regardless of the mechanism through which
          FDA accepts State inspections, the oversight of partnership inspections must be just as
          effective as that of contract inspections.

          Finally, we recognize the important work currently underway in the Roles and
          Responsibilities work group within the National Food Safety System (NFSS) project. We
          have modified the text of our report to more fully reflect the work of NFSS work groups
          as potential reference points in developing an appropriate oversight system. We also
          recognize the value of a systems approach to oversight of States’ capacities, laws,
          regulations, and abilities. To start, we recommend that FDA pilot a system audit with
          States willing to develop standards, regulations and inspection approaches substantially
          equivalent to FDA’s own. In response to the contention that our recommendations focus
          on oversight mechanisms that merely identify problems with State performance, we
          believe we place considerable emphasis on feedback mechanisms that would improve
          State performance.

National Food Processors Association

          The NFPA recognizes the extensive role that States play in food safety and the importance
          of strong Federal oversight as a means to achieve uniformity and quality in the regulatory
          landscape. The NFPA, however, views the need for oversight even more broadly than we
          define it in the report. It points to the wide variation in food safety expertise and auditing
          styles among the FDA district offices and suggests that a review function be established
          within the FDA to provide greater oversight of its own inspectors and audits.

          In general, NFPA agrees with most of our recommendations and shares our concerns
          regarding accountability in the food inspection system. The only recommendation that
          NFPA disagrees with is our recommendation to provide FDA with additional legal
          authorities. It believes that the agency’s current authorities are sufficient to assure a
          continuous safe food supply. The NFPA supports our recommendation that FDA draw on
          external sources of information in assessing State performance. In fact, it urges the
          recommendations to go even further, by requiring that both State and Federal inspections
          be subject to feedback from external parties.

          We continue to believe that additional FDA enforcement authorities are a vital
          component of effective oversight. We, along with other groups, raise concern that FDA’s
          reliance on States’ enforcement actions may compromise FDA’s ability to be critical of
          States’ performance. We believe that NFPA raises an important issue concerning
          variation in food safety expertise, and inspection and audit practices among FDA district
          offices. We agree that the credibility of an effective oversight system rests in large
          measure on the knowledge and skills of the FDA inspectors in the district offices. We
          recommend that FDA develop a training course for its own inspectors in both inspection
          and audit functions. Finally, we are pleased that the NFPA agrees with our
FDA Oversight: A Call for Greater Accountability   45                                     OEI-01-98-00400
          recommendation to include external sources of information as a key component of an
          effective oversight system. We encourage the FDA to develop as transparent an
          oversight system as possible.

National Fisheries Institute

          The NFI agrees with the major portions of our findings and recommendations. In
          particular, the NFI emphasizes the importance of external perspectives on the oversight
          process, which can augment the limited number of FDA on-site audits. The groups also
          strongly supports the shift from independent to joint audits as a more effective and less
          burdensome oversight tool for both the State and Federal inspectors, as well as for
          manufacturers. Finally, the group reiterates the importance of Federal and State food
          safety expertise, and encourages that the current voluntary Seafood HACCP certification
          program become mandatory in the future.

          The NFI agrees with most of our recommendations except for two areas. First, the NFI
          does not support the need for additional FDA enforcement authorities. The group
          believes that the FDA generally receives adequate enforcement support from States when
          necessary. Second, the NFI supports limited disclosure of State inspection information,
          but is concerned about the possible misinterpretation of detailed inspection results.

          We are pleased with the broad support from NFI regarding the importance of an effective
          oversight system and the role of many of our recommendations. On the issue of FDA
          enforcement authorities, we continue to believe that these authorities are a critical
          component of an effective oversight system. We do not believe that FDA should rely on a
          patchwork of State authorities to accomplish actions that it deems necessary. On the
          issue of public disclosure of State inspection and performance information, we do not
          recommend that FDA make the results of specific inspections publicly available. Instead,
          we recommend that FDA, at a minimum, publish aggregate information, such as a
          summary of inspection classifications and trends in critical violations.

The Center for Science in the Public Interest

          The CSPI strongly supports our report, but does not feel that we went far enough with
          our recommendations. The group expresses concern with FDA’s reliance on State
          partnership inspections and with the reallocation of duties from the Federal to State
          governments. The CSPI’s comments point out vulnerabilities and potential weaknesses in
          State inspection programs, such as the potential influence of State politics and economics
          on regulatory oversight. The group suggests that FDA should restrict reliance on States
          to low-risk inspections.

          The scope of our study was to assess the extent and nature of FDA’s oversight of State
          food firm inspections. We did not set out to determine the appropriate balance of
          inspection duties among the Federal and State governments, nor to define the
          appropriate balance between contracts and partnerships. However, we do emphasize
          that FDA should assure consumers that its commitment to food safety is no less under
FDA Oversight: A Call for Greater Accountability   46                                   OEI-01-98-00400
          partnership agreements than under contracts. In our report, we document variation
          among States in order to emphasize the importance of Federal oversight in supporting
          uniformity and quality in its program. We recognize that States have important expertise
          and resources in food safety; in some cases, State capacities may exceed those of FDA’s.
          We support collective efforts among Federal and State agencies for an effective food
          safety system that maximizes resources.




FDA Oversight: A Call for Greater Accountability   47                                 OEI-01-98-00400
                                                                           APPENDIX A


                            Overview of States Holding 

                       Contracts and Partnership Agreements

                                  Fiscal Year 1998


                  State                            Number of          Number of
                                                   Contracts    Partnership Agreements
         Alabama                                      1                    -
         Alaska                                       1                    1
         Arizona                                      -                    1
         Arkansas                                     1                    -
         California                                   -                    3
         Colorado                                     1                    1
         Connecticut                                  1                    -
         Delaware                                     -                    -
         Florida                                      1                    1
         Georgia                                      1                    1
         Hawaii                                       -                    -
         Idaho                                        1                    -
         Illinois                                     1                    1
         Indiana                                      -                    1
         Iowa                                         1                    -
         Kansas                                       1                    -
         Kentucky                                     1                    -
         Louisiana                                    1                    1
         Maine                                        1                    1
         Maryland                                     1                    1
         Massachusetts                                1                    1
         Michigan                                     1                    2
         Minnesota                                    1                    1
         Mississippi                                  1                    2
         Missouri                                     1                    -
         Montana                                      1                    -
         Nebraska                                     1                    -
         Nevada                                       -                    -
         New Hampshire                                -                    -
         New Jersey                                   1                    1
         New Mexico                                   -                    1
         New York                                     1                    1
         North Carolina                               1                    1


FDA Oversight: A Call for Greater Accountability           48                       OEI-01-98-00400
                                                                                         APPENDIX A


                  State                           Number of                      Number of
                                                  Contracts                Partnership Agreements
         North Dakota                                  1                              -
         Ohio                                          1                              -
         Oklahoma                                      -                              1
         Oregon                                        1                              1
         Pennsylvania                                  -                              2
         Rhode Island                                  1                              1
         South Carolina                               2*                              -
         South Dakota                                  -                              -
         Tennessee                                     1                              2
         Texas                                         1                              2
         Utah                                          -                              -
         Vermont                                       -                              -
         Virginia                                      1                              1
         Washington                                    1                              1
         West Virginia                                2*                              1
         Wisconsin                                     1                              2
         Wyoming                                       1                              -
         Puerto Rico**                                 1                              -
         Total = 51                         40 contracts (38 States)      37 partnerships (29 States)

       * The Department of Health holds one contract, the Department of Agriculture holds the other.
       ** One territory holds a food inspection contract.




FDA Oversight: A Call for Greater Accountability            49                                    OEI-01-98-00400
                                                        APPENDIX B


           Types of Partnership Agreements, Fiscal Year 1998

Seafood HACCP Partnerships:
1. Alaska

2. California

3. Colorado

4. Georgia

5. Louisiana

6. Maine

7. Maryland

8. Minnesota

9. Mississippi

10. New Jersey

11. New Mexico

12. New York

13. North Carolina

14. Oregon

15. Pennsylvania

16. Tennessee

17. Texas

18. Virginia

19. Washington

20. Wisconsin


Low-Acid Canned Food and Acidified Food Partnerships:
21. Illinois

22. Pennsylvania

23. Tennessee

24. Texas

25. West Virginia


Cheese and Dairy:
26. Michigan

27. Wisconsin 


Other:
28. Arizona - Raw agricultural products

29. California - Raw agricultural products

30. California - Exotic Game Facilities

31. Florida - Blue Crab Partnership

32. Indiana - Food Safety

33. Massachusetts - Inspection/samples 

34. Michigan - Pilot Cider HACCP 

35. Mississippi - Sandwich

36. Oklahoma - Food Safety

37. Rhode Island - Inspection/samples


FDA Oversight: A Call for Greater Accountability   50      OEI-01-98-00400
                                                                                                APPENDIX C


                         FDA District Offices Overseeing 

                       Contracts and Partnership Agreements

                                  Fiscal Year 1998



                     FDA District Office            Number of Contracts        Number of Partnership
                                                                                   Agreements

              Atlanta District                                 4                          2

              Baltimore District                               4                          3

              Chicago District                                 1                          1

              Cincinnati District                              2                          ---

              Dallas District                                  2                          3

              Denver District                                  2                          2

              Detroit District                                 1                          3

              Florida District                                 1                          1

              Kansas City District                             4                          ---

              Los Angeles District                             ---                        4

              Minneapolis District                             3                          3

              Nashville District                               2                          2

              New England District                             4                          3

              New Jersey District                              1                          1

              New Orleans District                             2                          3

              New York District                                1                          1

              Philadelphia District                            ---                        2

              San Francisco District                           ---                        *

              San Juan District                                1                          ---

              Seattle District                                 5                          3

              Total = 20 FDA district offices           40 contracts               37 partnerships
                                                   (17 FDA district offices)   (17 FDA district offices)



FDA Oversight: A Call for Greater Accountability          51                                         OEI-01-98-00400
                                                                                APPENDIX D


                                                   Methodology

       We collected information presented in this report from the following sources:

FDA

       Program Operation Data System (PODS). We analyzed national food firm inspection data
       over a 10-year period spanning 1989 to 1998. We reviewed the number and types of FDA
       inspections and the number and types of State contract and partnership agreement
       inspections. We analyzed State contract inspection classifications and time spent on
       contract inspections. We also reviewed the hours of training received by FDA inspectors
       between 1989 and 1998.

       FDA Audit Summary Data. We reviewed summary audit data between 1993 and 1998.
       We analyzed the number of joint and independent audits conducted by FDA district offices
       in each of the States holding contracts. We compared the numbers of audits conducted to
       the standards in FDA’s Field Management Directive No. 76.

       Food Contracts and Partnership Agreements. We requested from FDA headquarters
       copies of all of the food contract and partnership agreements active in 1998. We received
       40 of the 40 State food contracts, and 23 of the 37 partnership agreements pertaining to
       food firm inspections (FDA district offices reported in our survey that they held this number
       of active partnership agreements during 1998). We reviewed the contracts and partnership
       agreements for expectations regarding oversight, submission of State inspection and
       enforcement information, and FDA feedback to the States.

       FDA Evaluations of State Contracts and Partnership Agreements. We requested and
       reviewed semi-annual contract evaluations and annual partnership evaluations for 1998. We
       received 34 of 40 contract evaluations and 17 of 37 partnership evaluations for 1998. We
       assessed these documents for the depth of comments pertaining to State performance.

       FDA Oversight Directives and Guidance Documents. We reviewed FDA’s Field
       Management Directive No. 76 audit guidance for evaluation of State contract inspectional
       performance. We reviewed the Model Partnership Agreement Guidance Document (ORA-
       21) and the Model Seafood HACCP Partnership Agreement, FDA’s guidance document for
       the development and oversight of partnership agreements.

OIG Mail Surveys

       FDA District Offices. We surveyed all 20 district offices. We received 100 percent
       response rate. The survey addressed the following areas: oversight of the State food

FDA Oversight: A Call for Greater Accountability        52                             OEI-01-98-00400
                                                                                 APPENDIX D


       contracts, oversight of the State food partnership agreements, challenges facing FDA in
       overseeing State contracts and partnerships, and recommendations for improving oversight.

       States. We surveyed all 40 State agencies holding food contracts. We received 37
       responses, a 92 percent response rate. The survey addressed the following areas:
       background information on the State food firm inspection programs, FDA oversight of the
       food contracts and partnership agreements, challenges facing State food inspection
       programs, and recommendations to improve FDA oversight.

OIG Field Work

       Site Visits to FDA District Offices. We conducted site visits to three geographically
       diverse FDA district offices. Each of the district offices held both contracts and partnership
       agreements with States. The emphasis of the visits was on understanding the extent and
       nature of FDA’s oversight and the barriers that FDA faces in carrying out that oversight.

       Site Visits to States. We conducted site visits to three geographically diverse States. Each
       State was affiliated with one of the FDA district offices we visited and held at least one
       contract and one partnership agreement. The emphasis of the visits was on understanding
       the States’ experiences with FDA oversight, their internal oversight mechanisms, and their
       recommendations for improving FDA oversight.

       Audit Observations. During our site visits to the FDA district offices, we observed three
       FDA audits of State performance. We observed an independent audit of a seafood firm, a
       joint audit of a low-acid canned food firm, and a joint audit of a pasta firm. Our purpose
       was not to evaluate the FDA’s audit of State performance, but rather to observe the way in
       which FDA inspectors conducted audits.

Stakeholder Interviews

       We interviewed representatives of organizations we considered to be stakeholders in food
       safety oversight. These stakeholders included food safety experts, consumer groups, and
       industry groups.

Other Documents

       In addition to the documents referenced above, we reviewed statutes and regulations, FDA
       work plans and priority-setting agendas, reports by external agencies, and relevant literature.




FDA Oversight: A Call for Greater Accountability   53                                   OEI-01-98-00400
                                                                                              APPENDIX E



                          FDA and State Inspections 

                  in Foodborne Biological Hazards (Project 03)

                            Fiscal Years 1989-1998



         Fiscal       FDA Food Firm             State Food Firm        State Food Firm     Total Food Firm
         Years          Inspections            Inspections under          Inspections        Inspections
                       (number and                  Contract          under Partnership
                     percent of total) 1          (number and             Agreement
                                                percent of total)        (number and
                                                                       percent of total)

        1989            4524 (38 %)                7507 (62 %)                 --               12,031

        1990            3896 (36 %)                7071 (64 %)                 --               10,967

        1991            6618 (46 %)                7697 (54 %)                 --               14,315

        1992            4332 (37 %)                7441 (63 %)                 --               11,773

        1993            3884 (36 %)                7017 (64 %)                 --               10,901

        1994            3555 (39 %)                5530 (61 %)                 --                9,085

        1995            3517 (39 %)                5392 (61 %)                 --                8,909

        1996            3669 (42 %)                5047 (57 %)             95 (1 %)              8,811

        1997            3901 (31 %)                4991 (40 %)           3643 (29 %)            12,535

        1998            5603 (43 %)                4155 (32 %)           3165 (25 %)            12,923


                     2186         3417         3881        274        2247        918      8314       4609
                    Regular      Seafood      Regular    Seafood     Regular    Seafood Regular      Seafood
                                 HACCP                   HACCP                  HACCP                HACCP
                                                                    Source: FDA Program Operations Data System




          1
           For FDA Inspections from 1989-1992, we adjusted the number to compensate for the cooperative
program inspections that moved out of the 03 project category and into their own project category in 1992. In sum,
we subtracted the 03026 (A-E) PACS from the FDA food firm inspections in the years 1989-1992.
FDA Oversight: A Call for Greater Accountability             54                                      OEI-01-98-00400
                                                                                         APPENDIX F



                      State Contract Inspection Data

             in the Foodborne Biological Hazards (Project 03)

                          Fiscal Years 1996-1998


 State                Total            Average      Inspections       Inspections          Inspections
                      Number of        Number of    resulting in      resulting in         resulting in
                      Inspections      Hours per    No Action         Voluntary Action     Official Action
                                       Inspection   Indicated (NAI)   Indicated (VAI )     Indicated (OAI)

 Alabama              274              7.16         47.1%             52.2%                0.7%

 Alaska               155              3.71         73.5%             25.8%                0.7%

 Arkansas             467              2.85         59.5%             39.2%                1.3%

 Colorado             248              9.50         19.77%            76.6%                3.6%

 Connecticut          109              5.47         53.2%             46.8%                0.0%

 Florida              626              3.36         19.7%             70.6%                9.7%

 Georgia              173              5.73         25.4%             73.4%                1.2%

 Idaho                199              7.70         76.9%             23.1%                0.0%

 Illinois             700              6.61         83.0%             16.9%                0.1%

 Iowa                 150              6.14         13.3%             86.0%                0.7%

 Kansas               83               5.78         31.3%             67.5%                1.2 %

 Kentucky             220              7.15         68.2%             31.4%                0.4%

 Louisiana            567              6.18         42.0%             58.0%                0.0%

 Maine                151              6.09         78.8%             21.2%                0.0%

 Maryland             431              4.43         94.2%             5.3%                 0.5%

 Massachusetts        378              3.81         18.8%             80.2%                1.0%

 Michigan             512              6.15         45.3%             48.6%                6.1%

 Minnesota            455              5.23         56.0%             41.3%                2.6%

 Mississippi          72               4.27         13.9%             86.1%                0.0%

 Missouri             161              6.53         19.9%             73.9%                6.2%

 Montana              187              4.11         73.8%             26.2%                0.0%


FDA Oversight: A Call for Greater Accountability         55                                   OEI-01-98-00400
                                                                                            APPENDIX F


 State                Total            Average      Inspections          Inspections               Inspections
                      Number of        Number of    resulting in         resulting in              resulting in
                      Inspections      Hours per    No Action            Voluntary Action          Official Action
                                       Inspection   Indicated (NAI)      Indicated 2 (VAI 2)       Indicated (OAI)

 Nebraska             170              4.53         72.3%                27.7%                     0.0%

 New Jersey           1009             7.19         17.2%                82.8%                     0.0%

 New York             641              4.83         5.6%                 70.8%                     23.6%

 North                437              7.38         39.1%                58.6%                     2.3%
 Carolina

 North Dakota         115              4.11         9.6%                 90.4%                     0.0%

 Ohio                 712              4.72         29.2%                70.7%                     0.1%

 Oregon               461              7.35         39.3%                60.1%                     0.6%

 Puerto Rico          165              4.94         3.03%                95.2%                     1.8%

 South                193              8.64         10.9%                89.1%                     0.0%
 Carolina

 Tennessee            347              4.71         87.0%                12.1%                     0.9%

 Texas                917              7.92         29.0%                46.0%                     25.0%

 Virginia             510              6.24         86.1%                10.0%                     3.9%

 Washington           693              5.70         65.5%                33.6%                     0.9%

 West Virginia        284              4.67         31.7%                75.0%                     6.3%

 Wisconsin            859              6.80         70.8%                29.0%                     0.2%

 Wyoming              40               4.68         90.0%               10.0%                 0.0%
                                                                      Source: FDA Program Operations Data System


Note: We excluded Rhode Island from our analysis because the State did not hold a contract for the duration of
fiscal years 1996-1998.

Definitions: FDA uses three primary classifications for inspections: Official Action Indicated, which signifies
serious violations found during an inspection leading to a recommendation for regulatory or administrative
sanctions; Voluntary Action Indicated, which signifies some deficiencies found during an inspection, but not
significant enough to warrant regulatory or administrative sanctions (any corrective action is left to the firm to take
voluntarily). Note: This category represents our analysis of ‘VAI2' classifications; and No Action Indicated, which
signifies that minor or no deficiencies were found during an inspection and that a routine reinspection is
recommended.



FDA Oversight: A Call for Greater Accountability           56                                          OEI-01-98-00400
                                                                                              APPENDIX G


                        FDA and State Enforcement Authorities 

                             for Overseeing Food Firms


                          Authority                 Percentage of States           FDA Authority
                                                   with Authority (N=36)
               License/ permit revocation               28 (77.7%)                      No
               Civil monetary penalties                 26 (72.2%)                      No
               Immediate Embargo                        34 (94.4%)                      No
               Recall                                   16 (44.4%)                   Voluntary
               Seizure                                  28 (77.7%)                      Yes
               Injunction                               31 (86.1%)                      Yes
               Prosecution                              31 (86.1%)                      Yes
               Access to all firm records in            22 (61.1%)                      No
               question
               Use of photographic                   23 (63.8%)                         No
               equipment during inspection
                   Source: Office of Inspector General Mail Survey, August 1999.



                  States with Multiple Enforcement Authorities
                               Number of Authorities*           Number of States holding
                                                                these authorities (N=36)
                                             1                          1 (2.7%)
                                             2                             --
                                             3                          2 (5.5%)
                                             4                          2 (5.5%)
                                             5                         4 (11.1%)
                                             6                         5 (13.8%)
                                             7                         7 (19.4%)
                                             8                         7 (19.4%)
                                          9                           8 (22.2%)
                              Source: Office of Inspector General Mail Survey, August 1999.

* These include license revocation, civil monetary penalties, immediate embargo, recall, seizure, injunction,
prosecution, access to all firm records in question, and the use of photographic equipment during inspection.


FDA Oversight: A Call for Greater Accountability           57                                       OEI-01-98-00400
                                                                                               APPENDIX H


                      Educational and Training Requirements

                             for State Food Inspectors



                               Minimum Educational                      States (N=35)
                                  Requirements

                       High school diploma                                4 (10.8%)

                       High school diploma with college-                   2 (5.4%)
                       level science courses

                       College Diploma                                    5 (13.5%)

                       College Diploma with science                      23 (62.2%)
                       courses

                       Other                                               1 (2.7%)

                       Source: Office of Inspector General Mail Survey, August 1999.




                           Number of Days of Formal                     States (N=36)
                                  Training

                       5 days or less                                     8 (21.6%)

                       6-10 days                                         18 (48.6%)

                       11-15 days                                         5 (13.5%)

                       More than 15 days                                  5 (13.5%)

                               Source: Office of Inspector General Mail Survey, August 1999.




FDA Oversight: A Call for Greater Accountability           58                                      OEI-01-98-00400
                                                                                            APPENDIX I



                           FDA Audits of State Food Contracts



                                            Number of     Number of    Number of
                                            FDA Audits   Contract      States receiving
                                                         Inspections   at least one audit

                            FY 93           253          7354          34/39 (87%)

                            FY 94           139          5801          26/40 (65%)

                            FY 95           135          5661          24/40 (60%)

                            FY 96           140          5312          25/38 (66%)

                            FY 97           120          5231          17/38 (45%)

                            FY 98           104          4252          17/38 (45%)
                                                                               Source: FDA




FDA Oversight: A Call for Greater Accountability          59                                    OEI-01-98-00400
                                                                                              APPENDIX J


                    Partnership Agreement Expectations:

                  Comparison of Five Low-Acid Canned Food 

                          Partnership Agreements

We analyzed five low-acid canned food partnership agreements for their expectations in five key
areas: inspection reports, joint inspections, enforcement actions, training, and assessment
mechanisms. These partnerships were active at some point during fiscal years 1996-1998. Low-
acid canned food firm operations are generally considered high-risk and complex, heightening the
importance of effective FDA oversight.


                State                    Submission of                Submission of           FDA-State
                                       Inspection Reports           Information about          Training
                                                                   Enforcement Actions

     California                   • Summary inspection            • Enforcement actions,   • Not addressed.
                                  reports only; full inspection   “if requested.”
                                  reports upon request.
                                  • No report elements
                                  specified.
                                  • “Periodic” exchange.

     New Jersey                   • Inspection reports.           • Not addressed.         • Training “as
                                  • No report elements                                     needed.”
                                  specified.
                                  • No time frame specified.

     Illinois                     • Inspection reports.           • Not addressed.         • Training “as
                                  • No report elements                                     needed.”
                                  specified.
                                  • No time frame specified.

     Pennsylvania                 • Inspection reports.           • Enforcement actions.   • Training “will
                                  • No report elements            • “Prompt” exchange.     depend on
                                  specified.                                               availability of
                                  • “Prompt” exchange.                                     personnel and
                                                                                           resources.”

     Texas                        • Inspection reports.           • Enforcement actions.   • Training “will
                                  • No report elements            • Summary reports may    depend on
                                  specified.                      also be prepared.        availability of
                                  • No time frame specified.      • No time frame          personnel and
                                                                  specified.               resources.”




FDA Oversight: A Call for Greater Accountability             60                                       OEI-01-98-00400
                                                                                                APPENDIX J



                      Partnership Agreement Expectations:

                    Comparison of Five Low-Acid Canned Food 

                            Partnership Agreements 

                                   (Continued)

                   State           Number of Joint                FDA-State Assessment Mechanisms
                                     Inspections
                                                           Interim Evaluation            Final Evaluation

        California                • Not addressed.       • Not addressed.          • Final evaluation criteria
                                                                                   not specified.

        New Jersey                • Joint inspections    • Interim evaluation      • Final evaluation should
                                  “as needed.”           should track number of    analyze inspection findings
                                                         inspections, cost, and    and regulatory actions.
                                                         classifications.


        Illinois                  • Joint inspections    • Interim evaluation      • Final evaluation criteria
                                  “sufficient to train   should track number of    not specified.
                                  two inspectors.”       inspections,
                                  • “Subsequently, at    classifications, and
                                  least one joint        training; establish
                                  inspection per year    database of adverse
                                  with each              findings; and calculate
                                  inspector.”            cost per inspection.

        Pennsylvania              • Joint inspections    • Not addressed.          • Not addressed.
                                  “as necessary.”

        Texas                     • Joint inspections    • “This agreement does    • Final evaluation criteria
                                  “upon request,”        not require in-process    not specified.
                                  based upon             measurements.”
                                  “availability of
                                  personnel and
                                  agency priorities.”




FDA Oversight: A Call for Greater Accountability            61                                          OEI-01-98-00400
                                                                                 APPENDIX K


                                  Contract Semi-Annual Report

The FDA evaluates State inspection performance under contract twice a year in its semi-annual
reports. The semi-annual report contains three primary sections. Section A includes the number
of joint and independent audit inspections accomplished during the reporting period and the
number of deficiencies uncovered in those audits. Section B includes details of deficient
performance, assessment of the cause of the problem, and solutions planned or accomplished.
Section C provides space for FDA district offices to comment on overall contract performance, to
highlight significant State accomplishments or actions, and to raise questions and concerns.

For our review, we asked the Division of Federal-State Relations to provide us with all State
contract semi-annual reports for fiscal year 1998. We received reports for 34 of the 40 contracts.
These 34 contracts covered 3351 food sanitation inspections in fiscal year 1998. We analyzed the
semi-annual reports along the following dimensions: the number of audits conducted, the number
of deficiencies found, and the extent of comments on State performance. We categorized
comments about State performance in one of three ways, as defined below:


Definitions:

       a. No Assessment: The semi-annual report contains no comment regarding State
       performance or the quality of inspections.

       b. Minimal Assessment: The semi-annual report contains vague, broad statements of State
       performance with few details that describe the quality of State inspections or other
       information relevant to State performance.

       c. Some Assessment: The semi-annual report includes examples on which to base FDA’s
       assessment of State performance. This may include analysis of violations identified and
       inspection classifications or enforcement actions taken. The report may also include
       information on training conducted or changes in the State’s personnel that affect the State’s
       performance.




FDA Oversight: A Call for Greater Accountability   62                                  OEI-01-98-00400
                                                                                       APPENDIX K


         Analysis of Contract Semi-Annual Reports (FY 1998)


      State        Number         Number of        Number of         Comments on State Performance
                   of Joint      Independent       Deficiencies
                    Audits          Audits                            No        Minimal       Some
                                                                  Assessment   Assessment   Assessment

       AK               1               0               0                          X

       AL               0              5*               0                          X

       AR               0               1               1                          X

       CO               0               0               0             X

       CT               0               2               2                                       X

       FL               0               0               0                                       X

       GA               0               0               0             X

        ID              4               7               0                          X

       KS               0               0               0             X

       KY               8               4               0                          X

       LA               0              4*               0                          X

       ME               0               0               0                                       X

       MI               0               3               0             X

       MN               0               0               0             X

       MO               3               0               0                                       X

       MS               0               0               0                          X

       MT               2               0               0                          X

       ND               0               0               0             X

       NE               0               0               0             X

       NJ               0               9               0                          X

       NY               0               0               0             X

       OH               0               5               0                          X




FDA Oversight: A Call for Greater Accountability        63                                   OEI-01-98-00400
                                                                                                APPENDIX K


           Analysis of Contract Semi-Annual Reports (FY 1998)

                               (Continued)

        State         Number         Number of          Number of         Comments on State Performance
                      of Joint      Independent         Deficiencies
                       Audits          Audits                              No         Minimal          Some
                                                                       Assessment    Assessment      Assessment

          OR              3                0                 0                                            X

          PR              0                0                 0                            X


      SC - Dept.          8                0                 0             X
         Of
      Agricultur
          e

        SC -              0                0                 0             X
       Dept. of
       Health

          TN              0               4*                 0                            X

         TX               0                0                 0             X

         VA               0               10                 0                                            X

         WA               6                0                 0                                            X

          WI              0                0                 0             X

        WV -              2                3                 0                            X
       Dept of
      Agricultur
          e

        WV -              4                8                 0                            X
       Dept of
       Health

         WY               0                0                 0             X

      TOTALS             41               65                 3            13              14              7
      (N = 34)


Note: We received no information from FDA regarding State food sanitation contracts with the States of Illinois, Iowa,
Maryland, Massachusetts, North Carolina, and Rhode Island.

* It is unclear from the semi-annual reports whether the audits conducted were joint or independent. We listed them as
independent audits, because according to the FMD-76, that is the primary evaluation mechanism for the food sanitation
contract.

     FDA Oversight: A Call for Greater Accountability            64                                      OEI-01-98-00400
                                                                                     APPENDIX L



                                 Annual Partnership Evaluation

The Partnership Agreement Guidance Document (ORA -21) calls for annual evaluation of partnership
agreement activities. These annual evaluations are conducted jointly by FDA district offices and
States. The FDA district offices submit copies of these evaluations to headquarters.

The annual partnership evaluation form (attachment C of the ORA-21) contains 10 elements. Four of
these elements are particularly relevant to evaluating the quality and effectiveness of work performed
under partnership agreements. These include Outputs (e.g. number of inspections, number of people
trained), Outcomes (e.g., what was the result, benefit to partners), Evaluation of Partnership
Agreement (e.g. strengths and weaknesses, positives and negatives), and Recommendations.

For our review, we asked the Division of Federal-State Relations to provide us with copies of all of
the fiscal year 1998 partnership agreement evaluations pertaining to food firm inspections. We
received 17 evaluations of 37 partnership agreements reported by district offices as active during fiscal
year 1998. We analyzed these evaluation documents according to the following dimensions: the
extent of comments on State performance, whether there were comments on FDA performance, and
whether there were critical comments regarding the partnership activities. We provide definitions of
these categories below.


Definitions:

Comments on State Performance:

     a. Minimal Assessment: Contains vague, broad statements of State performance with few details
     that describe the quality of State inspections or other information relevant to State performance.

     b. Some Assessment: Includes examples on which to base FDA’s assessment of State
     performance. This may include analysis of violations identified and inspection classifications or
     enforcement actions taken. The report may also include information on training conducted or
     changes in the State’s personnel that affect the State’s performance.

Comments on FDA performance: Contains information on the quality of FDA inspections
conducted.

Critical Comments: Contains critical comments including comments about problems encountered,
solutions identified, and recommendations to improve performance.




    FDA Oversight: A Call for Greater Accountability   65                                   OEI-01-98-00400
                                                                                       APPENDIX L



             Analysis of Partnership Evaluations (FY 1998)


         State               Comments on State Performance           Comments on   Critical Comments
                                                                         FDA
                              Minimal              Some Assessment   Performance
                             Assessment

  CA                                                     X               no               no

  GA                               X                                     no               no

  IL                               X                                     no               no

  LA                                                     X               no               yes

  ME                               X                                     no               no

  MI                                                     X               no               yes

  MS (sandwich)                    X                                     no               no

  MS (seafood)                                           X               no               yes

  NY                               X                                     no               no

  NC                               X                                     no               no

  OK                                                     X               no               no

  PA                                                     X               no               yes

  TN                               X                                     no               no

  TX (seafood)                                           X               no               yes

  TX (low-acid                     X                                     no               no
  canned food)

  WI (seafood)                     X                                     no               no

  WI (cheese)                      X                                     no               yes

        Totals                     10                     7            Yes = 0          Yes = 6
       (N = 17)                                                        No = 17          No = 11




FDA Oversight: A Call for Greater Accountability          66                                    OEI-01-98-00400
                                                                                                                APPENDIX M



                       Full Text of Comments on the Draft Report


                                                                                                                                   PAGE

Food and Drug Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68


Association of Food and Drug Officials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76


National Food Processors Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 84


National Fisheries Institute . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87


Center for Science in the Public Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94





      FDA Oversight: A Call for Greater Accountability              67                                                     OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   68       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   69       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   70       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   71       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   72       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   73       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   74       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   75       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   76       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   77       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   78       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   79       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   80       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   81       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   82       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   83       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   84       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   85       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   86       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   87       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   88       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   89       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   90       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   91       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   92       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   93       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   94       OEI-01-98-00400
                                                        APPENDIX M




FDA Oversight: A Call for Greater Accountability   95       OEI-01-98-00400
                                                                                APPENDIX N


                                                   Endnotes

1. World Health Organization Press Release, “WHO Responds to New Challenges in Food
Safety,” January 25, 2000.

2. Paul S. Mead, et al., “Food-Related Illness and Death in the United States,” Emerging
Infectious Diseases 5 (September-October 1999) 5: pp. 607-625. The estimates of foodborne
illness cited are more than twice as high as those suggested in earlier studies, which put the figure
for foodborne illness at 30 million.

3. Food and Drug Administration, Food Safety Inspection Service, and Center for Disease
Control and Prevention, “Healthy People 2000: Status Report Food Safety Objectives,”
(September 1, 1999).

4. Donna U. Vogt, “Food Safety Issues in the 105th Congress,” Congressional Research Service
Issue Brief, (August 11, 1998), p. 2.

5. Institute of Medicine, National Research Council, Ensuring Safe Food from Production to
Consumption (Washington: National Academy Press, 1998).

6. United States Environmental Protection Agency, United States Department of Health and
Human Services, and United States Department of Agriculture, “Food Safety From Farm to
Table: A National Food Safety Initiative,” (Report to the President, May 1997).

7. Two States, South Carolina and West Virginia, hold two contracts each. In each State, one
contract is held by the Department of Health, the other by the Department of Agriculture.

8. The President’s Food Safety Initiative is supporting, among other activities, the establishment
of a consortium in which all Federal agencies with risk-management responsibilities will improve
the quality of risk-assessment for foods.

9. The FDA district offices oversee State contracts in accord with the Field Management
Directive No. 76 (October 24, 1995); FDA district offices oversee the partnership agreements in
accord with the Office of Regulatory Affairs Partnership Agreement Guidance Document
(January 23, 1996).

10. The seven principles are: (1) analyze hazards, (2) identify critical control points to control
identified hazards, (3) establish the point at which a preventive action must be taken, (4) establish
procedures to monitor the control points, (5) establish corrective actions to be taken when
monitoring shows that a critical limit has not been met, (6) establish procedures to verify that the
system is working consistently, and (7) establish effective record keeping to document the

FDA Oversight: A Call for Greater Accountability      96                                OEI-01-98-00400
                                                                               APPENDIX N


HACCP system.

11. National Food Safety System Project work groups: 1. Roles and Responsibilities, 2.
Coordinating Outbreak Responses and Investigations, 3. Information Sharing and Data
Collection, 4. Communication, 5. National Uniform Standards, and 6. Laboratory Operations and
Coordination.

12. Speech by Joseph Levitt, Director of the FDA Center for Food Safety and Applied Nutrition
at the 50-State meeting, “Meeting Challenges Together,” Kansas City, Missouri, September 15-
17, 1998.

13. The type of food contract we focus on in this report is the food sanitation contract.

14. These are inspections conducted under FDA’s 03 project category for Foodborne Biological
Hazards.

15. These programs derive their authority from the Public Health Service Act [42 U.S.C. 201 et
seq.], whereby FDA’s role is to provide assistance and guidance to States.

16. Based on information collected through our site visit, Texas conducted the following
inspections under its contract and partnership agreements: 353 inspections under contract, 83
low-acid and acidified food inspections under partnership agreement, and 107 seafood HACCP
inspections under Seafood HACCP partnership agreement. During this same time period, FDA
reported that it conducted about 50 general food inspections, 13 acidified and low-acid canned
food inspections, and 41 Seafood HACCP inspections.

17. The following examples illustrate the shift from low-risk to high-risk food firm inspections
under contract: Fishery/seafood inspections conducted by the States increased by 178 percent
over the past decade (from 269 in 1989 to 749 in 1998). During this same time period, soft drink
and water inspections, which are considered low-risk, decreased by 37 percent (from 478 in 1989
to 299 in 1998); and bakery inspections, also considered low-risk, have decreased by 14 percent
(from 943 in 1989 to 813 in 1998).

18. Twenty-one of the 37 partnership agreements are for Seafood HACCP inspections; 5 are for
low-acid canned and acidified foods; and 2 are for cheese and dairy products. The remaining
partnerships cover various general food categories.

19. Between 1989 and 1998, the number of inspections that States conducted under contract
dropped from 7507 in 1989 to 4155 in 1998.

20. In 1998, FDA conducted 1,795 domestic food safety inspections (PAC 03803) ; the States
conducted 1653 under partnership agreement.
FDA Oversight: A Call for Greater Accountability   97                                  OEI-01-98-00400
                                                                                 APPENDIX N


21. We use the term inspector to denote all FDA personnel carrying out food firm inspections.

22. For contracted inspections, the States are required to use FDA’s inspection classifications.
By contrast, for inspections conducted under partnership agreement, the States can use their own
classification systems.

23. FDA’s consumer safety officers must have a college degree that includes 30 semester hours
in one or a combination of subjects: biological sciences, chemistry, pharmacy, physical sciences,
food technologies, nutrition, medical sciences, or vetrinary medicine. These 30 hours may include
up to 8 semester hours of statistics or coursework in computers. A combination of education and
experience may be substituted for the college degree; however, FDA requires that its consumer
safety officers have 30 semester hours of science.

24. At present, States generally inspect domestic food firms and domestic products under
partnership agreements. The President of the Association of Food and Drug Officials recently
called upon FDA to enhance its coverage of imported products through expanding the
partnerships. Article by Allison Wright, “ FDA’s proposed international food safety activities
should involve partnerships with the States, “Food Chemical News, 8 November 1999, p.4.

25. While the number of inspections under State contract also declined during this time period,
the percent of audits relative to the total number of contract inspections dropped by almost one-
third. In 1993, FDA audited about 3.4 percent of total inspections conducted under contracts. In
1998, FDA audited only 2.4 percent of the total contract inspections.

26. The Field Management Directive No. 76 calls for 6 audits for contracts with up to 100
inspections, 10 audits for contracts with 101-300 inspections, 22 audits for contracts with 301-
900 inspections, and 34 audits for contracts with over 901 inspections. According to the
directive, “The required number of independent audits will be accomplished for a minimum of one
year. If no significant performance problems are found during this period, and the overall
performance is considered satisfactory by the District, the number of audits may be reduced by 50
percent to a maintenance level.”

27. Those 7 district offices oversee 11 of the 38 States under contract.

28. Several district offices cited difficulties in meeting even the 30-day time frame.

29. In accordance with the Paperwork Reduction Act [P.L. 104-13], FDA cannot survey more
than 10 entities without clearance from the Office of Management and Budget. The Federal
Advisory Commission Act set forth the rules under which FDA can rely on information gleaned
from external sources.

30. We are referring to the 03 project category for Foodborne Biological Hazards.
FDA Oversight: A Call for Greater Accountability   98                                    OEI-01-98-00400
                                                                                  APPENDIX N


31. The Office of Regulatory Affairs Partnership Agreement Guidance Document identifies FDA
and State responsibilities to conduct joint inspections, but does not define their function. The
Model Seafood HACCP partnership agreement offers some definition, but lacks specific guidance,
“joint inspections will serve training, technology and information exchange, and verification
functions.”

32. We note that performance audits have been conducted of the retail side of the partnership.
However, our study focuses on inspections in the manufacturing and processing arena.

33. In our analysis of five low-acid canned food partnership agreements, we identified
expectations ranging from the “prompt exchange” of enforcement documentation to lack of any
specifications.

34. The State contract semi-annual evaluation form can be found in the Field Management
Directive No. 76, (October 24, 1995), p. 6; the partnership agreement annual evaluation form can
be found in the Office of Regulatory Affairs Partnership Agreement Guidance Document (January
23, 1996), Attachment C.

35. FDA’s general information telephone hotline is 1-888-FDA-INFO. Its websites are located at
www.foodsafety.gov and www.fda.gov.

36. Note that this is a result of funds provided through the President’s Food Safety Initiative to
support the 1995 Seafood HACCP Regulations. While the overall number of operational FTEs
has increased, the increases occurred primarily in the areas of Domestic Fish and Fishery Products
and Import Seafood Products. Over the past decade, a number of other program areas lost FTEs.
The most notable of these were Domestic Food Safety and Domestic Acidified and Low-Acid
Canned Foods.

37. United States Environmental Protection Agency, United States Department of Health and
Human Services, and United States Department of Agriculture, “Food Safety From Farm to
Table: A National Food Safety Initiative,” (Report to the President, May 1997), p. 37. The report
cites significant decreases in FDA’s inspectional coverage since 1981. An FDA regulated plant is
inspected by FDA, on average, only once every 10 years.

38. Annual Partnership Evaluation of the Oklahoma Partnership Agreement, SW Region/Dallas
District, Section 9, November 1998, “Capturing partnership inspection data into the FDA Facility
Inspection System has proved to be a problem. Inspections performed under State contract were
conducted using FDA forms and cover sheets, which captured all the data elements required for
entry into the agency’s electronic data inspection system. Since inspections under the partnership
are not being paid for and the State is receiving little monetary support from FDA for the project,
we are not in a position to require the State to provide specific information in a specific format.
The State uses its own inspection form to capture data elements that match its data needs.
FDA Oversight: A Call for Greater Accountability  99                                     OEI-01-98-00400
                                                                               APPENDIX N


Translation of their data for use in FDA’s electronic system has resulted in some errors in the data
capture in FDA’s FIS. We are attempting to work through this problem with more the recent
data, but it requires some time-consuming manual manipulation of the information supplied by
Oklahoma State Department of Health.”

39. For example, under the Oklahoma Food Safety Partnership Agreement, the Oklahoma State
Department of Health conducts 100 percent of the food firm inspections in its State. In the Texas
Low Acid Canned Food and Acidified Food partnership agreement, the Texas Department of
Health conducts 90 percent of the acidified canned food inspections, and FDA conducts 10
percent.

40. In some of its agreements FDA has recognized the importance of retaining a minimum level of
inspections to maintain its own expertise. The Model Seafood HACCP Partnership Agreement
states, “FDA will conduct at least (enter the appropriate number of inspections that are to be
performed by FDA under the terms of the agreement, but in no case less than 10 percent of the
fish and fishery processors in the State).” The model Seafood HACCP partnership agreement
cites reasons for maintenance of FDA inspectional capacity as the potential for reduced State
capacity or problems that arise with the agreement, maintaining domestic and international
credibility through some FDA inspectional presence in each State, and maintaining intelligence
about the industry throughout the country. The California Low Acid Canned Food partnership
states, “FDA may make periodic LACF inspections so that FDA investigators can maintain their
expertise in the areas of LACF and acidified food inspections.”

41. Department of Health and Human Services, Office of Inspector General, FDA Food Safety
Inspection, OEI-05-90-01070, 1991.

42. The Canadian Food Inspection Agency,“Equivalence of the Fish and Fishery Products
Inspection and Control Systems,” Report of an Audit of the Inspection and Control System for
Fish and Fishery Products of the U.S. Food and Drug Administration, (June 2, 1999).

43. Institute of Medicine, National Research Council, Ensuring Safe Food from Production to
Consumption (Washington: National Academy Press, 1998), p.7.

44. U.S. Food and Drug Administration, Center for Food Safety and Applied Nutrition, CFSAN
2000 Program Priorities, 10 February 2000.

45. FDA has developed a cost estimate of $425,000 for fiscal year 2000 audit activity based on an
audit frequency at 5 percent of 5,200 State contract inspections. The FDA estimates $630,000
for fiscal year 2001 with a frequency of 7 percent, and $988,000 for fiscal year 2002 with a
frequency of 10 percent.


FDA Oversight: A Call for Greater Accountability   100                                 OEI-01-98-00400
                                                                                APPENDIX N


46. The model contract calls for States to report a considerable amount of information using
standardized formats and FDA codes. This includes specific information that enables FDA to
assess a firm’s compliance with FDA regulations, which States themselves might not obtain
through their own inspections. In addition, the contract states that “the inspection reports should
detail the conditions found with sufficient narrative to enable an assessment of any objectionable
conditions or practices found. Where microbiologically oriented inspections are conducted, a
more detailed description of the manufacturing process, routes of contamination, etc., will also be
made.” Under partnership agreements, as we have demonstrated, FDA obtains information far
below its own standards for contracts.

47. “The fourth essential feature of an ideal federal food safety system is that it be organized to be
responsive to and work in true partnership with non-federal partners. These include state and
local governments, the food industry, and consumers.” Institute of Medicine, National Research
Council, Ensuring Safe Food from Production to Consumption, (Washington: National Academy
Press, 1998), p.7.

48. At present, the contract document devotes only one sentence to feedback: “Results of the
quality assurance review will be furnished to the contractor.” The partnership agreements
promote more joint work and communication.

49. In objective 6 of its Draft Preliminary Food Safety Strategic Plan, the President’s Council on
Food Safety calls for FDA to promote voluntary best practices developed and implemented by
industry and/or State governments. President’s Council on Food Safety, Draft Preliminary Food
Safety Strategic Plan for Public Review, January 2000.

50. The ORA Division of Human Resource Development (DHRD) is developing a training course
for FDA Investigators on the process and techniques for auditing State contracts and
partnerships. The course is planned to be offered in September 2000.

51. In objective 5 of its Draft Preliminary Food Safety Strategic Plan, the President’s Council on
Food Safety calls for FDA to protect the food supply through developing additional national
training and job standards. Such a program could include a credentialing system for food safety
inspectors, investigators, and program reviewers. President’s Council on Food Safety, Draft
Preliminary Food Safety Strategic Plan for Public Review, January 2000.

52. Department of Health and Human Services, Office of Inspector General, FDA Food Safety
Inspection, (OEI-05-90-01070), 1991.

53. Department of Health and Human Services, Office of Inspector General, FDA Food Safety
Inspection, (OEI-05-90-01070), 1991.


FDA Oversight: A Call for Greater Accountability   101                                   OEI-01-98-00400
                                                                      APPENDIX N


54. FDA’s Recommended National Retail Food Regulatory Program Standards (February 6,
1998) proposes a listing program of State retail programs that meet FDA standards.




FDA Oversight: A Call for Greater Accountability   102                       OEI-01-98-00400
